<html>
<title> - ASSESSING THE THREAT TO THE HOMELAND FROM AL-QAEDA OPERATIONS IN IRAN AND SYRIA</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







 ASSESSING THE THREAT TO THE HOMELAND FROM AL-QAEDA OPERATIONS IN IRAN 
                               AND SYRIA

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON COUNTERTERRORISM
                            AND INTELLIGENCE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 22, 2013

                               __________

                           Serial No. 113-19

                               __________

       Printed for the use of the Committee on Homeland Security


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE

85-684 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2250  Mail: Stop SSOP, Washington, DC 
20402-0001




                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Tulsi Gabbard, Hawaii
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Chris Stewart, Utah                  Steven A. Horsford, Nevada
Richard Hudson, North Carolina       Eric Swalwell, California
Steve Daines, Montana
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Vacancy
                       Greg Hill, Chief of Staff
          Michael Geffroy, Deputy Chief of Staff/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

           SUBCOMMITTEE ON COUNTERTERRORISM AND INTELLIGENCE

                   Peter T. King, New York, Chairman
Paul C. Broun, Georgia               Brian Higgins, New York
Patrick Meehan, Pennsylvania         Loretta Sanchez, California
Jason Chaffetz, Utah                 William R. Keating, Massachusetts
Chris Stewart, Utah                  Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
             Kerry Ann Watkins, Subcommittee Staff Director
                    Dennis Terry, Subcommittee Clerk
                  Hope Goins, Minority Staff Director












                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence..............................     1
The Honorable Brian Higgins, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Counterterrorism and Intelligence:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     7

                               Witnesses

Mr. Seth G. Jones, Ph.D., Associate Director, International 
  Security and Defense Policy Center:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10
Mr. Robin Simcox, Research Fellow, The Henry Jackson Society:
  Oral Statement.................................................    15
  Prepared Statement.............................................    16
Mr. Thomas Joscelyn, Senior Fellow, Foundation for the Defense of 
  Democracies:
  Oral Statement.................................................    19
  Prepared Statement.............................................    21
Mr. Barak Barfi, Research Fellow, New America Foundation:
  Oral Statement.................................................    29
  Prepared Statement.............................................    31

 
 ASSESSING THE THREAT TO THE HOMELAND FROM AL-QAEDA OPERATIONS IN IRAN 
                               AND SYRIA

                              ----------                              


                        Wednesday, May 22, 2013

             U.S. House of Representatives,
                    Committee on Homeland Security,
         Subcommittee on Counterterrorism and Intelligence,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 311, Cannon House Office Building, Hon. Peter T. King 
[Chairman of the subcommittee] presiding.
    Present: Representatives King, Stewart, and Higgins.
    Also present: Representative Jackson Lee.
    Mr. King. Good morning. The Committee on Homeland Security 
Subcommittee on Counterterrorism Intelligence will come to 
order.
    The subcommittee is meeting today to hear testimony 
examining the threat to the homeland for al-Qaeda operatives in 
Iran and Syria, and want to welcome all of the witnesses, say 
thank you for giving us your time, and now I will recognize 
myself for an opening statement.
    Before I make the statement, I would like to comment on the 
fact that we have been advised that there was a shooting in 
Florida today, which seems to have some relationship to the 
Boston marathon investigation.
    The FBI was, as we have been told, interrogating a Chechen 
who had an involvement--an alleged involvement with the older 
brother and what we are told so far is that the person being 
questioned actually pulled a knife and stabbed the FBI agent 
and then the assailant was killed on the spot.
    So again, I think it shows that the tentacles of these 
terrorist connections often go beyond what we first anticipate 
and also without pre-judging anything makes me wonder again how 
much information we missed by the interrogation being cut short 
of the younger brother in Boston at the time.
    But I say that only because I think many of us will agree 
in many ways it is a seamless web. There are disconnects but 
there are also a seamless web among various terrorist groups 
and we have to basically, you know, be looking at every 
possible threat.
    With that, I want to welcome the witnesses today for this 
hearing, ``Assessing the Threat to the Homeland From al-Qaeda 
Operations in Iran and Syria.''
    This hearing continues the Counterterrorism and 
Intelligence Subcommittee's plan for the 113th Congress.
    I say at the outset that the Ranking Member, Brian Higgins, 
and I think are on certainly full agreement as to where the 
subcommittee is going. Whether we agree on everything as we go 
along, who knows, but we certainly have the same intent and the 
same focus and I really look forward to the, you know, this 
session.
    We will be examining current threats, detecting emerging 
threats, and overseeing intelligence sharing between Federal, 
State, and local governments.
    Today we are examining safe havens in Syria and Iran from 
which al-Qaeda could target the homeland, the relationship 
between al-Qaeda and Iran, the threat to the United States from 
foreign jihadis in Syria, and how Syrian instability may impact 
al-Qaeda's capabilities.
    On April 22 the RCMP, the Canadian Mounties, arrested two 
Islamists, Raed Jaser and Chiheb Esseghaier. I am not sure I 
have that exactly right, but you know what we are talking 
about.
    At the direction of al-Qaeda members in Iran, these men 
planned to derail a passenger train from Toronto, as it passed 
over Niagara Falls en route to New York City.
    I will point out of course they we are talking about 
Congressman Higgins' district and a district very close to mine 
in New York, and I say that as a preview to what we will say 
later on about the lack of information we were given on this.
    On May 9 American authorities arrested Ahmed Abassi, an 
associate of these men in the United States, who also supported 
al-Qaeda's Syrian affiliate.
    Now, had their terror plot succeeded, American and Canadian 
civilian casualties in New York could have been catastrophic.
    Let me say up front as I started to mention before, the 
Committee on Homeland Security was never briefed, even in 
classified settings, about this year-long investigation of a 
serious threat against the homeland.
    Obviously, a threat against any American is a threat 
against all Americans but I think it was particularly egregious 
in this case that when you have two Members of Congress from 
New York in the area impacted by this that the Department of 
Homeland Security--nobody in the intelligence committee, the 
law enforcement community, at any time advised me and I don't 
think they advised Congressman Higgins during the last year 
about this. To me, that is inexcusable.
    It is something which we, as Chairman of the committee and 
now as Chairman of the counterterrorism subcommittee and 
Ranking Member Higgins, we attend weekly, biweekly briefings 
from the FBI, from the National Counterterrorism Center, from 
the Department of Homeland Security where we are told and 
advised of so many possible plots, all of the investigations 
that are going on, and yet this one which was so key, we were 
never told anything about.
    To me, it is just inexcusable and basically I am passing on 
to the--all of those agencies and departments of that this is 
not going to be tolerated.
    It is a--there is no excuse whatsoever for holding back on 
this type of information. Also my understanding is that New 
York State and local police were not briefed about this plot, 
either.
    Now, we have seen this pattern for years now, most recently 
in the Boston Marathon bombing and the planned follow-up attack 
on Times Square and the Fort Hood and Little Rock shootings.
    The Federal Government identifies potential terrorists or 
attack plans, but does not share the knowledge with State and 
local police. Again I would say the fact that in Boston where 
the FBI was advised of a possible attack against Time Square 
and did not notify the NYPD and their theory was well the plot 
was over, the threat had ended, the fact is as we saw with the 
killing in Florida today, perhaps that plot was not over and it 
had not ended. So again, I just pass on that to the FBI the 
importance of information sharing. Turf battles should have 
ended on September 11, 2001.
    This information sharing was urged by the 9/11 Commission 
and ordered by the Homeland Security and Intelligence Reform 
and Terrorism Prevention Acts.
    Now, there is much we don't know about the relationship 
between Iran and al-Qaeda. As Churchill described Germany and 
Stalin with their Union in 1939, it is a ``a riddle, wrapped in 
a mystery, inside an enigma.''
    The Iranian regime is a state sponsor of terror, and al-
Qaeda is a terror organization. But Tehran's ayatollahs are 
Shi'i Muslims and al-Qaeda are Sunni Muslims.
    For this reason Iran and al-Qaeda are enemies under some 
circumstances. In Syria, Tehran's proxies, the Assad regime and 
Hezbollah, fight against the Syrian opposition, which 
unfortunately now is a substantial al-Qaeda influence and 
presence. Iranian terror proxies and al-Qaeda also fight each 
other in Iraq.
    On the other hand, since 2001 some senior leaders on al-
Qaeda's management council have resided in Iran. Al-Qaeda uses 
Iran as facilitation, finance, and transport hub.
    From this sanctuary al-Qaeda ordered attacks against 
Westerners in Saudi Arabia in 2003. But our Government's 
assumption was that al-Qaeda would not allow al-Qaeda to plot 
against America from within Iran.
    This latest al-Qaeda plot against New York, hatched from 
inside Iran, makes us question this assumption. A similar 
reassessment of Iran's intentions was caused by Iran's 2011 
plot to partner with a Mexican drug cartel to assassinate a 
Saudi ambassador by means of a car bomb here in Washington, DC.
    Greatly adding to our concerns are the following facts. Al-
Qaeda in Syria, also known as the Nusra Front, is an outgrowth 
of al-Qaeda's vicious Iraqi affiliate. It is responsible for 
the vast majority of suicide attacks in Syria.
    Among the several thousand members of the Nusra Front are, 
according to unclassified sources, a large number of foreign 
jihadis with Belgian, Dutch, Danish, Dutch--British, Danish, 
Dutch, German, Finnish, French, or Swedish citizenship or 
residency.
    Europeans constitute as much as 10 percent of this al-
Qaeda's affiliate strength. Canadians, Australians, and perhaps 
even Americans have gone to Syria to fight alongside--or even 
with--al-Qaeda.
    These foreign fighters will likely undergo further Islamist 
radicalization as they receive terror training and gain combat 
experience before returning home to the West.
    The border between Syria and Turkey, a Muslim Brotherhood-
led country which is itself a cause of growing terror concerns, 
is porous. It will be difficult for U.S. authorities to 
determine, going forward, whether a European or British 
Commonwealth citizen or a returning U.S. person may have been 
inside Syria.
    The Syrian situation is made more dangerous by the 
availability--and even use--of military-grade chemical weapons.
    If even a fraction of Syria's vast stockpile of poisonous 
and toxic gases falls into the hands of terrorist groups, these 
weapons of mass destruction will pose a grave threat to 
homeland security.
    With that want to thank all of the witnesses today; 
especially look forward to any testimony you may have involving 
bin Laden's son-in-law who was captured and had been spending 
time in Iran and what impact that has.
    But I would think the witnesses.
    Now I am pleased to recognize the Ranking Member, Brian 
Higgins, for his opening statement.
    Mr. Higgins. I would like to thank Chairman Peter King for 
holding this hearing; today's hearing.
    I would also like to thank the witnesses for their 
testimony.
    Assessing the threats the United States from al-Qaeda 
operatives in Iran and Syria is uncharted territory for this 
subcommittee.
    Even though exploring the subject is new to the 
subcommittee, I believe it is our responsibility, and I thank 
the Chairman for agreeing to hold this hearing.
    On April 22, the Royal Canadian Mounted Police announced 
the arrest of two people in connection with plotting a 
terrorist attack on a passenger train that travels from Toronto 
through Niagara Falls into New York City.
    According to the Royal Canadian Mounted Police, the alleged 
terrorists were receiving assistance from al-Qaeda elements in 
Iran. The RCMP stated that there was no connection to state 
sponsorship.
    If these allegations are true, it would mark the first time 
al-Qaeda elements in Iran directed a plot at the West. Soon 
after the news of the arrests of the terrorists broke, Iran's 
Foreign Ministry spokesman stated that there was no firm 
evidence of any Iranian involvement and such groups as al-Qaeda 
have no compatibility with Iran in both political and 
ideological fields.
    Iran is a Shi'i majority country. Only about 8 to 10 
percent of the population is Sunni and al-Qaeda is a Sunni 
organization. Even though there are political and ideological 
differences between Iran and al-Qaeda, there is a need to look 
deeper at their relationships.
    Several al-Qaeda operatives have made Iran their home. In 
2001, when the United States Government took out the Taliban 
government, many of bin Laden's family members and top 
lieutenants self-exiled to Iran.
    In the past, Iran kept a very close eye on all al-Qaeda 
figures in the country. Iranian intelligence services have 
access to all communications and contacts.
    However, these restrictions have been loosened and this 
should raise questions about whether al-Qaeda operatives in 
Iran are making trips outside the country to make connections 
with a broader terror network.
    As we evaluate al-Qaeda's relationship with Iran, we must 
be sure not to look at it in a myopic view. We need to evaluate 
both al-Qaeda and Iran's relationships with the areas of the 
Middle East; especially areas of conflict.
    Hezbollah, a terrorist organization supported by Iran has a 
growing and active role in the war in Syria. Hezbollah is an 
ally of President Assad and is aiding government forces in this 
Syrian Civil War.
    Al-Qaeda operatives on the other hand have been traveling 
to Syria to bring down the Syrian regime. As the violence grows 
in Syria it becomes more sectarian bringing Hezbollah and al-
Qaeda fighting face-to-face with each other.
    Will the conflict between Iranian-backed Hezbollah and al-
Qaeda elements in Syria have a grave effect on the United 
States? What will this conflict do to al-Qaeda's relationship 
with Iran?
    As the recent Canadian plot brings questions about al-
Qaeda's role in both Iran and Syria, there are still questions 
that should be raised about al-Qaeda's effect in the West.
    The plot brings the question of whether al-Qaeda operatives 
in Iran are looking to Canada as their target for terrorist 
activity and recruitment. Canada's being a target for terrorist 
activity and recruitment is startling because a successful plot 
can cause catastrophic loss to the United States.
    In addition to the potential for innocent people in two 
countries being killed or injured, or people from two countries 
being killed or injured, there is a possibility of grave damage 
to critical infrastructure and the economy of western New York 
in southern Ontario.
    The Peace Bridge in Buffalo is a busy Northern Border 
crossing for automobiles in the United States. It is a local 
symbol and architectural icon for the Buffalo Niagara region. 
It is one of America's busiest corridors for international 
travel and trade.
    Canada is the United States' No. 1 trading partner. In 
2011, over $597 billion of imports and exports were traded with 
Canada. Over $30 billion in annual commerce travels through the 
Peace Bridge. This Western New York region is the first point 
of entry into the United States between Toronto and New York 
City where the terrorists were attempting to attack.
    The security of our border should be a priority and this 
means that first responders who are familiar with the border in 
the area should be fully funded to prepare and prevent an 
attack.
    This also means that information that the Federal 
Government has related to a potential attack should be 
adequately shared with State and local partners. Having the 
information is key to preventing an attack from groups from 
both foreign and domestic.
    We can expand our knowledge today and I look forward to 
hearing today's testimony.
    I yield back.
    [The statement of Ranking Member Higgins follows:]
               Statement of Ranking Member Brian Higgins
                              May 22, 2013
    Assessing the threat to the United States from al-Qaeda operatives 
in Iran and Syria is unchartered territory for this subcommittee. Even 
though exploring this subject is new to the subcommittee, I believe it 
is our responsibility and I thank the Chairman for agreeing to hold 
this hearing.
    On April 22, the Royal Canadian Mounted Police announced an arrest 
of two people in connection with plotting a terrorist attack on a 
passenger train that travels from Toronto, through Niagara Falls, into 
New York City. According to the RCMP, the alleged terrorists were 
receiving assistance from al-Qaeda elements in Iran. The RCMP stated 
that there was no connection to state sponsorship. If these allegations 
are true, it would mark the first time al-Qaeda elements in Iran 
directed a plot at the West.
    Soon after the news of the arrests of the terrorists broke, Iran's 
Foreign Ministry spokesman stated that there is no firm evidence of any 
Iranian involvement and groups such as al-Qaeda have no compatibility 
with Iran in both political and ideological fields.
    Iran is a Shia majority country, only about 8 to 10 percent of the 
population is Sunni and al-Qaeda is a Sunni organization. Even though 
there are political and ideological differences between Iran and al-
Qaeda, there is a need to look deeper at their relationships.
    Iran is home to al-Qaeda operatives. In 2001, when United States 
Government took out the Taliban government in Afghanistan, many of 
Osama bin Laden's family members and top lieutenants self-exiled to 
Iran. In the past, Iran kept a very close eye on all al-Qaeda figures 
in the country. Iranian intelligence services had access to all 
communications and contacts.
    However, these restrictions have been loosened. This should raise 
questions about whether al-Qaeda operatives in Iran are making trips 
outside of the country to make connections with the broader terror 
network.
    As we evaluate al-Qaeda's relationship with Iran, we must be sure 
not to look at it in a myopic view. We need to evaluate both al-Qaeda's 
and Iran's relationships with other areas of the Middle East, 
especially areas of conflict.
    Hezbollah, a terrorist organization supported by Iran, has a 
growing and active role in war-torn Syria. Hezbollah is an ally of 
President Assad and is aiding government forces in Syria. Al-Qaeda 
operatives, on the other hand, have been traveling to Syria to bring 
down the Syrian regime. As the violence grows in Syria, it becomes more 
sectarian, bringing Hezbollah and al-Qaeda fighting face-to-face with 
each other.
    Will the conflict between Iranian-backed Hezbollah and al-Qaeda 
elements in Syria have a grave effect on the United States? What will 
this conflict do to al-Qaeda's relationship with Iran? As the recent 
Canadian plot brings questions about al-Qaeda's role in both Iran and 
Syria, there are still questions that should be raised about al-Qaeda's 
effect in the West. The recent plot in Canada also brings the question 
of whether al-Qaeda operatives in Iran have a broader terror network, 
and if Canada serves as their target for terrorist activity and 
recruitment.
    Canada being a target for terrorist activity and recruitment is 
startling because a successful plot can cause catastrophic loss to the 
United States. In addition to the potential for innocent people from 
two countries being killed and injured, there is a possibility of grave 
damage to critical infrastructure and the economy.
    The Peace Bridge in Buffalo is the busiest border crossing for 
automobiles in the United States. It is a local symbol and an 
architectural icon for the Buffalo Niagara region. It is one of 
America's busiest corridors for international travel and trade. Canada 
is the United States' No. 1 trading partner. In 2011, over $597.4 
billion of imports and exports were traded with Canada. Over $30 
billion of annual commerce travels through the Peace Bridge in Buffalo, 
Niagara region. This region is the first point of entry into the United 
States between Toronto and New York City, where the terrorists were 
attempting to attack.
    The security of our border should be a priority and this means that 
first responders should be fully funded to prepare and prevent an 
attack. This also means that information that the Federal Government 
has related to a potential attack should be adequately shared with 
State and local partners. Having the information is key in preventing 
an attack from groups both foreign and domestic. We can expand our 
knowledge today.

    Mr. King. I thank the Ranking Member for his opening 
statement.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                              May 22, 2013
    Today's hearing is an assessment on the threat from al-Qaeda 
operatives in the Republic of Iran and the Syrian Arab Republic. Both 
Iran and Syria have tense relationships with the United States. The 
United States does not consider these countries as allies, is a welcome 
criterion for al-Qaeda to operate and thrive in these two regions.
    We know that radicalization by the al-Qaeda extremist ideology and 
communication with al-Qaeda is widespread and accessible. Vulnerable 
areas such as Syria, which is crippling under a civil war, could 
potentially be a safe haven for al-Qaeda operatives to radicalize and 
train militants.
    The Republic of Iran has been home to top al-Qaeda operatives for 
over a decade. In the past, the government closely monitored their 
dealings within the state. However, recent actions by the Iranian 
government illustrate that their interactions with al-Qaeda may have 
become laxed. However, it is my hope as we evaluate the threat from al-
Qaeda operatives in these countries, we give a fair, thorough, and 
critical assessment. This evaluation should not only include testimony 
from today's hearing, but also information that we receive from the 
State Department and the intelligence community.
    On April 22, 2013, the Royal Canadian Mounted Police arrested two 
individuals for plotting a terrorist attack on a passenger rail train 
that travels from Toronto, through the Northern Border at Niagara Falls 
to New York City. According to authorities, the alleged perpetrators 
received assistance from al-Qaeda operatives in Iran. As of today, the 
authorities do not see this foiled plot as a link to a plot directed by 
the Iranian government. The Iranian government also denies any 
involvement in this plot. Even though there is not evidence that shows 
that there is a link to the Iranian government and these perpetrators, 
Iran, as a state sponsor of terrorism, and its relationship with al-
Qaeda should be evaluated. This thwarted plot also gives rise to other 
issues that should be given another thorough evaluation.
    First, the threat to mass transit is not novel. According to the 
National Counter-Terrorism Center's Worldwide Incidents Tracking 
System, from January 2004 to July 2008, 530 terrorist attacks were 
waged worldwide against mass transit and passenger rail targets, 
resulting in over 2,000 deaths and over 9,000 injuries. In the United 
States, a plot to attack the New York City subway system was thwarted 
in September 2009. The convicted conspirators stated they were directed 
by al-Qaeda. Thirty-four million rail and transit passenger trips are 
taken within the United States each weekday. However, the 
Transportation Security Administration's budget for surface 
transportation security remains less than 2% of TSA's budget.
    Another issue that should be evaluated is the Northern Border. To 
date, over the last decade, the Department of Homeland Security, with 
support from Congress, has made unprecedented investments in border 
security. During my time on this committee, I have consistently 
advocated for a comprehensive strategy to help guide how border 
security funding is utilized.
    Last week, the Committee passed H.R. 1417, which requires the DHS 
to develop a comprehensive strategy and implementation plan for 
achieving operational control of our borders. The bill sets a goal for 
the Secretary to certify to Congress that operational control of the 
border has been achieved in high traffic areas, which includes Northern 
Border areas such as Niagara Falls, within 2 years.
    Another evaluation to consider is the cost of terrorism. Had this 
plot been successful, it could have affected some of the busiest border 
crossings in the Nation. The border crossings in along the Northern 
Border between New York and Canada are linked to over $200 billion in 
annual U.S. sales, income, and Federal taxes. We know that one of the 
goals of al-Qaeda is to cause economic disruption.
    The attacks of September 11, 2001 did not just result in the deaths 
of 2,250 people, it also resulted in nearly $80 billion in economic 
damage with about $32.5 billion covered by nearly 150 domestic and 
international insurers and reinsurers. In the wake of the attacks, 
commercial insurance insurers began excluding terrorism coverage from 
policies provided to businesses across the country.
    In response, Congress enacted the Terrorism Risk Insurance Act of 
2002 to increase the availability of terrorism risk insurance to at-
risk American businesses by guaranteeing that the Government would 
share some of the losses with private insurers should a terrorist 
attack occur. Initially authorized for 3 years, the program was refined 
and extended in 2005 and 2007. It is scheduled to sunset in 2014.
    I have introduced the ``Fostering Resilience to Terrorism Act of 
2013,'' which extends the TRIA program 10 years, creating much-needed 
stability and predictability for the business community. Finally, 
another evaluation should be of community engagement and involvement. 
Canadian authorities gave credit to the Canadian Muslim community for 
recognizing and identifying the behavior of the alleged perpetrators 
and reporting this information to the authorities.
    Last Congress, this committee held a series of hearings that 
stroked a climate of fear and distrust in the Muslim community. Those 
hearings also served as propaganda for fear and distrust of the Muslim 
community. In the wake of the Boston Marathon bombings, attempts were 
made to revive this climate of fear and distrust. Some said that we 
must surveil the Muslim community.
    Luckily, this committee served as a platform to counter the 
arguments that were perpetuated last Congress. The Boston Police Chief 
testified that there is no need to live in a surveillance state and a 
former FBI special agent in charge testified that community involvement 
is what is necessary to recognize the signs of radicalization and 
prevent attacks. These are just a few things that we can evaluate in 
this hearing and beyond. I look forward to today's testimony.

    Mr. King. We are very pleased to have a distinct panel of 
witnesses for us today, Dr. Seth Jones, Mr. Robin Simcox, Mr. 
Tom Joscelyn, Mr. Barack Barfi.
    Our first witness, Dr. Seth Jones, is the associate 
director of the International Security and Defense Policy 
Center at the RAND Corporation as well as an adjunct professor 
at Johns Hopkins University School for Advanced International 
Studies.
    Previously, Dr. Jones served as the representative for the 
Commander U.S. Special Operations Command to the Assistant 
Secretary of Defense of Special Operations. Prior to that 
position, he served as a plans officer and advisor to the 
Commanding General U.S. Special Operations Forces in 
Afghanistan.
    Dr. Jones specializes in counterinsurgency and 
counterterrorism including a focus on Afghanistan, Pakistan, 
and al-Qaeda. He has been a source of information and advice to 
this committee and we are pleased to welcome him back for this 
session as well.
    Dr. Jones.

    STATEMENT OF SETH G. JONES, PH.D., ASSOCIATE DIRECTOR, 
        INTERNATIONAL SECURITY AND DEFENSE POLICY CENTER

    Mr. Jones. Thank you very much, Chairman King, Ranking 
Member Higgins, and Members of the subcommittee. Thanks for 
inviting us on this very important subject.
    I am going to focus my remarks predominantly on the Syria 
front because I consider that blinking red right now, though I 
had written and have a number of comments later on the Iran 
component.
    In my view with the escalating war in Syria presents a 
growing threat to the United States led by Jabhat al-Nusrah, 
which is an al-Qaeda-affiliated group and we will touch on that 
shortly.
    Syria is becoming a training ground for foreign fighters. 
As Chairman King mentioned, for the past year, particularly 
concerning, an increasing number of fighters have traveled to 
Syria from other locations including the West particularly in 
Europe to fight against the Assad regime where some have joined 
Jabhat al-Nusrah.
    Most Westerners appear to be Europeans from such countries 
as Belgium, France, and Sweden. There are many others that the 
Chairman mentioned as well.
    Many of these fighters are gaining valuable experience in 
combat, in bomb making, in propaganda, in counterintelligence. 
Most are expanding their relationships with other jihadist 
networks operating in other regions and are likely becoming 
more ideologically committed to the cause.
    In addition, this European pipeline is used to transport 
money, material, and other things to the Syrian front. While in 
my judgment the number of American citizens at the moment 
traveling to Syria appears to be limited at least in comparison 
to the number of Europeans and others, the increase in 
Europeans with potential access to the United States does 
present a serious counterterrorism challenge.
    I would say it is unclear at the moment whether most of 
these fighters will remain in the long run in Syria, whether 
they will move to other war zones, or whether they will return 
home.
    Even if some return home as we have seen with groups like 
al-Shabaab it is uncertain whether they will become involved in 
plots, recruiting, and fundraising, or become disillusioned.
    I would say the trend is fairly straightforward and that is 
that Syria is attracting a growing cadre of foreign fighters 
including from the West who could potentially return home with 
the capability and the intentions to conduct attacks or be 
involved in other terrorist activity in the United States.
    The rest of my remarks will focus on three issues. The 
first is Jabhat al-Nusrah, the second is its capabilities, and 
the third is what that means for the homeland.
    Let me just briefly mention that it is clear--it is very 
important in my view to recognize that Jabhat al-Nusrah or the 
al-Nusrah front group out of al-Qaeda and Iraq's logistics and 
support network in Syria in late 2011.
    When it was created al-Qaeda and Iraq utilized these 
established networks to create Jabhat al-Nusrah has an 
operational arm. They were much more careful than they have 
been in other places to make this not overtly publicized that 
relationship so in some cases created confusion on people 
covering the Syrian war that maybe the connections weren't as 
strong.
    I would say at least as I have looked at it, that the 
organization was created out of, generally out of al-Qaeda in 
Iraq. Its goal fits al-Qaeda's model. It is to establish an 
emirate in Syria and potentially the broader region.
    I would say one thing very briefly on the trends. After the 
April 2013 strain between Jabhat al-Nusrah and al-Qaeda in Iraq 
what appears to be a very concerning development is Jabhat al-
Nusrah's increasing close relationship with al-Qaeda's central 
leadership in Pakistan.
    Meaning that should be a very serious concern for the 
United States if we are seeing a dialogue go back to Ayman al-
Zawahiri's central leadership. That has grave implications, I 
think, for the United States.
    I do think, second on the capabilities; again we are seeing 
a fairly robust command-and-control network. I think it is 
worth noting that al-Nusrah has been involved in over-running 
multiple bases in Syria that are--in gathering extensive 
firepower including heavy artillery, heavy weapons, and 
aircraft.
    Then finally, on threats to the West, let me just say 
briefly that I would say at the moment, Jabhat al-Nusrah does 
appear to be predominately interested in overthrowing the Assad 
regime and possibly launching attacks against Israel, but it is 
possible that these intentions could change.
    I think it is critical for the United States to keep a very 
close watch with its allies including both in Europe and the 
region on these individuals getting them on a watch list 
because with potential access to Europe, they have got 
potential access through the visa waiver program to the United 
States.
    This is a very serious concern. I think in the long run, 
the threat to the United States from Syria will only increase 
and so we better deal with this now, and we can talk again 
about the substance of that later.
    I will conclude my remarks again by thanking you Chairman 
King and Ranking Member Higgins and the rest of the committee 
for this opportunity. I look forward to the questions.
    [The prepared statement of Mr. Jones follows:]
                Prepared Statement of Seth G. Jones \1\
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of RAND or any of the sponsors of its research. This product is part of 
the RAND Corporation testimony series. RAND testimonies record 
testimony presented by RAND associates to Federal, State, or local 
legislative committees; Government-appointed commissions and panels; 
and private review and oversight bodies. The RAND Corporation is a 
nonprofit research organization providing objective analysis and 
effective solutions that address the challenges facing the public and 
private sectors around the world. RAND's publications do not 
necessarily reflect the opinions of its research clients and sponsors.
---------------------------------------------------------------------------
                              May 22, 2013
                  the terrorist threat from syria \2\
---------------------------------------------------------------------------
    \2\ This testimony is available for free download at http://
www.rand.org/pubs/testimonies/CT388.html.
---------------------------------------------------------------------------
    Chairman King, Ranking Member Higgins, and Members of the 
subcommittee, thank you for inviting me to appear before you today on 
this important topic.
    The escalating war in Syria presents a growing threat to the United 
States. Led by Jabhat al-Nusrah (the Victory Front), an al-Qaeda-
affiliated group, Syria is becoming a consummate training ground for 
foreign fighters. Over the past year, an increasing number of fighters 
have traveled to Syria from other areas--including the West--to fight 
against the Assad regime, where some have joined Jabhat al-Nusrah. Most 
Westerners appear to be Europeans from such countries as Belgium, 
France, and Sweden. Many of these fighters are gaining valuable 
experience in combat, bomb making, propaganda, and counterintelligence. 
Most are also expanding their relationships with fighters from other 
regions--such as the Persian Gulf, North Africa, and South Asia--and 
becoming more ideologically committed. In addition, this European 
pipeline is used to transport money and material to the Syrian front.
    While the number of American citizens traveling to Syria appears to 
be limited, at least at the moment, the increase in Europeans with 
potential access to the United States presents a serious 
counterterrorism challenge. It is currently unclear whether most of 
these fighters will remain in Syria over the long run, move to other 
war zones such as North Africa, or return home. And even if some return 
to the West, it is uncertain whether these fighters will become 
involved in terrorist plots, focus on recruiting and fundraising, or 
become disillusioned with terrorism. Still, the trend is clear: Syria 
is attracting a growing cadre of foreign fighters from the West, who 
could potentially return home with the capability to conduct attacks 
against the United States and its allies.
    The information for this testimony was gathered from a range of 
sources, including jihadist websites and forums, Western websites that 
publish jihadist videos and transcripts (such as SITE Intelligence 
Group and the Long War Journal), interviews with government officials 
from the West and the Middle East, and secondary sources. Yet there are 
notable gaps in this analysis, as there are in most assessments of the 
Syrian war. It is uncertain, for instance, how many foreign fighters 
from the West and other areas have traveled to Syria, why and how they 
have radicalized, and what they will do if they leave. Despite these 
methodological challenges, there is still sufficient information to 
assess the threat from Syria with reasonable accuracy.
    This testimony is divided into three sections. The first outlines 
the origins of Jabhat al-Nusrah and its evolution since 2011. The 
second section assesses Jabhat al-Nusrah's growing capabilities and 
presence in Syria, as well as briefly describes other militant groups 
operating in Syria. The third examines the threat to the U.S. homeland 
and U.S. allies from Syria.
                    the origins of al-qaeda in syria
    Jabhat al-Nusrah grew out of al-Qaeda in Iraq's logistics and 
support network in Syria. Beginning as early as 2003, Syria became a 
key transit point for foreigners that wanted to fight in Iraq. 
According to documents captured in a raid near Sinjar, Iraq, for 
instance, foreign fighters in Iraq came from such countries as Saudi 
Arabia, Libya, Yemen, Algeria, and Syria. Most were young, averaging 24 
to 25 years old. Some had been students, while others held full-time 
jobs.\3\ Virtually all of the foreign fighters entered Iraq through 
Syria with the aid of smuggling and criminal networks.\4\ In short, 
Syria became a significant transit hub for al-Qaeda and other terrorist 
groups.
---------------------------------------------------------------------------
    \3\ Joseph Felter and Brian Fishman, Al-Qaeda's Foreign Fighters in 
Iraq: A First Look at the Sinjar Records (West Point, NY: Harmony 
Project, Combating Terrorism Center, 2007).
    \4\ Brian Fishman, ed., Bombers, Bank Accounts, and Bleedout: Al-
Qaeda's Road In and Out of Iraq (West Point, NY: Harmony Project, 
Combating Terrorism Center, 2008), pp. 50, 70.
---------------------------------------------------------------------------
    As the war in Syria began to intensify in 2011, al-Qaeda in Iraq 
leaders utilized these established networks and created Jabhat al-
Nusrah as their operational arm in Syria. Al-Qaeda in Iraq leader Abu 
Bakr al-Baghdadi (also known as Abu Du'a) explained that ``we laid for 
them plans, and drew up for them the policy of work, and gave them what 
financial support we could every month, and supplied them with men who 
had known the battlefields of jihad, from the emigrants and the 
natives.''\5\ Al-Qaeda in Iraq officials chose Abu Muhammad al-Jawlani, 
an Iraqi national, as leader (or emir). Jawlani pledged allegiance to 
Baghdadi before taking charge of operations in Syria in late 2011. Al-
Qaeda in Iraq then sent small arms and light weapons--including rifles, 
light machine guns, and rocket-propelled grenades--to its Syrian 
contingent. It also sent explosives experts to augment Jabhat al-
Nusrah's bomb-making capabilities and deployed fighters to boost its 
ranks. A growing number of donors from the Persian Gulf and Levant 
began to send financial support.\6\
---------------------------------------------------------------------------
    \5\ Audio Statement by Abu Bakr al-Baghdadi, SITE Intelligence 
Group, April 10, 2013.
    \6\ Author interview with government officials from Europe and the 
Middle East, April and May 2013.
---------------------------------------------------------------------------
    Jabhat al-Nusrah leader Abu Muhammad al-Jawlani explained that the 
group's goal is to bring ``back the rule of God's law on earth.''\7\ It 
is a Salafi-jihadist group committed to establishing an Islamic emirate 
in Syria and potentially the broader region. Its leaders have 
established a radical interpretation of sharia, or Islamic law, in some 
areas they control in Syria. In an important development, however, al-
Qaeda leaders initially decided not to publicize the group's links with 
al Qa'ida in Iraq, perhaps out of concern that it would undermine their 
support in Syria and draw unwelcome attention from U.S. and other 
foreign intelligence agencies.
---------------------------------------------------------------------------
    \7\ Video Statement by Abu Muhammad al-Jawlani, January 24, 2012.
---------------------------------------------------------------------------
    Syria has long been important to al-Qaeda for historical, 
religious, and strategic reasons. Known as Bilad al-Sham, or the Land 
of the Levantine Peoples, Damascus was the base for the thirteenth 
century scholar Ibn Taymiyyah, whose book, The Religious and Moral 
Concept of Jihad, is a pillar of al-Qaeda's ideology.\8\ The wider 
Levant region also includes al-Quds, or Jerusalem, Islam's third-
holiest site after Mecca and Medina. In addition, Syria is 
strategically important because it borders two of al-Qaeda's most hated 
enemies, Israel and Jordan, and the Assad government's conventional and 
unconventional weapons caches may become increasingly available as the 
Assad regime loses control of territory.\9\
---------------------------------------------------------------------------
    \8\ Shaykh ul-Islaam Taqi-ud-Deen Ahmad Ibn Taymiyyah, The 
Religious and Moral Doctrine of Jihad (Birmingham, England: Maktabah al 
Ansaar Publications, 2001).
    \9\ The author thanks Bruce Hoffman for making these points.
---------------------------------------------------------------------------
    By early 2013, however, Jabhat al-Nusrah's relationship with al-
Qaeda in Iraq became strained, pushing Jahbat al-Nusrah closer to al-
Qaeda's senior leadership in Pakistan. Jabhat al-Nusrah officials were 
apparently unhappy when al-Qaeda in Iraq announced in April 2013 their 
intention to merge the al-Qaeda's affiliates in Iraq and Syria under a 
common name, the Islamic State in Iraq and the Levant. As Jabhat al-
Nusrah established its own sources of funding, fighters, and material, 
it became increasingly independent from al-Qaeda in Iraq. A formal 
merger would likely have undermined this autonomy. Asserting his 
independence from al-Qaeda in Iraq, Jawlani declared his loyalty 
directly to al-Qaeda's central leadership in Pakistan. ``This is a 
pledge of allegiance from the sons of the al Nusrah Front and their 
supervisor general that we renew to the Sheikh of Jihad, Sheikh Ayman 
al-Zawahiri, may Allah preserve him,'' Jawlani announced in April.\10\ 
As discussed later in the testimony, Jabhat al-Nusrah's move toward al-
Qaeda's central leadership in Pakistan makes it a more dangerous enemy 
to the United States.
---------------------------------------------------------------------------
    \10\ Audio Statement by Abu Muhammad al-Jawlani, SITE Intelligence 
Group, April 10, 2013. On the broader debate, also see Thomas Joscelyn, 
``Al Nusrah Front Leader Renews Allegiance to al Qaeda, Rejects New 
Name,'' Long War Journal, April 10, 2013.
---------------------------------------------------------------------------
    Understanding the origins of Jabhat al-Nusrah is important for two 
reasons. First, al-Qaeda in Iraq operatives helped establish the group, 
directly linking it to al-Qaeda. Unlike with other affiliates, such as 
al-Qaeda in the Arabian Peninsula (AQAP) in Yemen, Syrian operatives 
publicly downplayed their ties with al-Qaeda. This was an important 
strategic decision and one that al Qa'ida-linked groups may 
increasingly do in the future to avoid unwanted monitoring from foreign 
governments. Second, this relationship gave Jabhat al-Nusrah access to 
money, weapons, fighters, and other material from al-Qaeda in Iraq.
                          growing capabilities
    Since early 2012, Jabhat al-Nusrah has developed a robust command-
and-control network across Syria, conducted a devastating string of 
suicide attacks, and orchestrated hundreds of car bombs and 
assassinations against the Assad regime. Between November 2011 and 
December 2012, for instance, it was involved in nearly 600 attacks in 
Damascus, Aleppo, Homs, Idlib, and other locations.\11\ It has claimed 
credit for many of its attacks in announcements released on jihadist 
forums and its Twitter site. Indeed, Jabhat al-Nusrah has established 
an advanced propaganda campaign led by its official media arm, the 
White Minaret Group.
---------------------------------------------------------------------------
    \11\ U.S. Department of State, Terrorist Designations of the al-
Nusrah Front as an Alias for al-Qa'ida in Iraq (Washington, DC: U.S. 
Department of State, December 2012).
---------------------------------------------------------------------------
    To organize its operations, Jabhat al-Nusrah appointed a management 
council, set up a headquarters, and created regional networks with 
military and religious leaders to run operations, manage cross-border 
facilitation, and procure weapons and other supplies. In addition, it 
has amassed an impressive arsenal of weapons, making it one of al-
Qaeda's best-armed affiliates in the world. It has participated with 
other groups in seizing control of several Syrian military bases and 
acquired a vast array of armaments to enhance its firepower and endow 
it with capabilities more akin to a small army than a rag-tag group of 
guerrilla fighters. In February 2013, for example, Jabhat al-Nusrah 
fighters helped seize control of the al-Jarrah airbase in Thawra, as 
well as two dams in Raqqa. In January, Jabhat al-Nusrah and Ahrar al-
Sham teamed up with the Islamic Vanguard to seize control of Taftanaz, 
a key Syrian air force base in Idlib. In December 2012, Jabhat al-
Nusrah and allied groups took control of the Sheikh Suleiman base. In 
October, Jabhat al-Nusrah and allied fighters overran a Syrian air 
defense and Scud missile base in Aleppo.\12\
---------------------------------------------------------------------------
    \12\ See, for example, Bill Roggio, `` `Islamist' Factions Seize 
Syrian Airbase,'' Long War Journal, February 12, 2013.
---------------------------------------------------------------------------
    As Figure 1 highlights, Jabhat al-Nusrah has been active in several 
areas of Syria. Its most secure sanctuary is likely in the Sunni-
dominated Dayr az-Zawr province, where al-Qaeda in Iraq's foreign 
fighter pipeline operated for nearly a decade. A second area is in 
northwestern Syria, where Jabhat al-Nusrah has moved fighters, 
explosives, and other material across the Turkish border into its 
sanctuaries in Halab and Idlib provinces. Reminiscent of groups like 
Hezbollah, Jabhat al-Nusrah has set up some humanitarian relief efforts 
in these provinces, along with religious courts and schools. Jabhat al-
Nusrah has also established a sanctuary in southwestern Syria in Dar'a 
province, near the Jordanian border, as well as in Damascus.\13\
---------------------------------------------------------------------------
    \13\ Author interview with government officials from Europe and the 
Middle East, April and May 2013. 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    While Jabhat al-Nusrah is one of the most capable extremist groups 
in Syria, it is not the only one. It has conducted joint operations 
with over a dozen groups, such as Ahrar al-Sham, Suqur al-Sham, and 
Martyrs of Syria. Ahrar al-Sham is perhaps the largest Salafi-jihadist 
group operating in Syria.\14\ In 2012, Jabhat al-Nusrah cooperated with 
at least nine other groups to create the Mujahideen Shura Council in 
Dayr az-Zawr. The council was formed to ``unite the ranks of the jihadi 
brigades in the Cause of Allah, organize the efforts and the attacks 
against the soldiers of disbelief and apostasy, and distinguish the 
ranks of truth from falsehood,'' according a statement released by the 
group in December 2012. ``We call upon our sincere mujahideen brothers 
all over the strong Levant to unite their ranks in groups, pure of the 
filth of suspicious groups and the infiltration of people who have no 
qualities or faith, in order to clarify their banner and purify their 
path.''\15\ Al-Qaeda in Iraq pursued a similar strategy, forming a 
Mujahideen Shura Council in 2006 to coordinate operations among Sunni 
militant groups in Iraq.
---------------------------------------------------------------------------
    \14\ On Syrian opposition groups see Elizabeth O'Bagy, Jihad in 
Syria (Washington, DC: Institute for the Study of War, September 2012); 
Aron Lund, Syrian Jihadism (Uppsala, Sweden: Swedish Institute of 
International Affairs, September 2012).
    \15\ Bill Roggio, ``Al Nusrah Front Poised to Take Over Last Major 
City on Euphrates River,'' The Long War Journal, March 13, 2013.
---------------------------------------------------------------------------
                          threats to the west
    At the moment, Jabhat al-Nusrah and its leaders, including Abu 
Muhammad al-Jawlani, appear to be most interested in overthrowing the 
Assad regime and possibly launching attacks against Israel. But it is 
conceivable that Jawlani's intentions will evolve and Jabhat al-Nusrah 
or splinter groups could conduct attacks in the West after--or even 
before--the Assad regime falls. Jabhat al-Nusrah's access to foreign 
fighters, external network in Europe and other areas, and bomb-making 
expertise suggest that it may have the capability to plan and support 
attacks against the West.
    More broadly, there appears to be a growing contingent of foreign 
fighters traveling to--and from--Syria to fight in the war. A 
substantial portion of these fighters are coming from the region, 
including Jordan, Saudi Arabia, and Iraq. But a significant number also 
appear to be coming from the West, especially from Belgium, France, and 
Sweden. Extremists have traveled to Syria from other European 
countries. According to Spanish officials, for example, a network based 
in Spain and Morocco sent approximately two dozen fighters to Jabhat 
al-Nusrah over the past year. It is unclear how many of these fighters 
have returned to the West, but some have apparently returned to 
Germany, Denmark, Spain, and Norway among others. In October 2012, 
authorities in Kosovo arrested the extremist Shurki Aliu, who had 
traveled from Syria to Kosovo and was involved in recruiting and 
providing material to Syrian opposition groups. A small number of 
Americans--perhaps less than a dozen--have apparently traveled to Syria 
to fight with the Syrian opposition.\16\
---------------------------------------------------------------------------
    \16\ Author interview with government officials from Europe and the 
Middle East, April and May 2013.
---------------------------------------------------------------------------
    While Turkey is the most common transit country through which 
extremist foreign fighters travel before entering Syria, some use 
Jordan, Lebanon, and Iraq. As Iraqi Foreign Minister Hoshiyar Zebari 
acknowledged, ``We have solid information and intelligence that member 
of al-Qaeda terrorist networks have gone in the other direction, to 
Syria, to help, to carry out attacks.''\17\ There are also indications 
that some al-Qaeda members have left Pakistan and traveled to Syria, 
including former al-Qaeda senior leader Abu Wafa al-Saudi.
---------------------------------------------------------------------------
    \17\ ``Iraq Says al-Qaeda Flowing Into Syria,'' Al Jazeera, July 5, 
2012.
---------------------------------------------------------------------------
    These trends pose a threat to the United States. Syria is 
attracting a growing cadre of foreign fighters from the West, who could 
potentially return with the capability to conduct attacks against the 
United States and its allies. Some of these individuals have joined 
Jabhat al-Nusrah, which has developed a closer relationship with al-
Qaeda's senior leaders in Pakistan. Just as concerning, some Free 
Syrian Army leaders have praised Jabhat al-Nusrah. Colonel Riyad al-
Assad, a founder of the Free Syrian Army, defended Jabhat al-Nusrah as 
``our brothers in Islam.'' He continued that they ``might have some 
ideological thoughts over which we differ, but the majority of the 
people are looking with admiration toward the al Nusrah Front.''\18\ 
And Ahmed Moaz al-Khatib, head of the Syrian Opposition Coalition, 
similarly remarked that the U.S. decision in December 2012 to designate 
Jahbat al-Nusrah as a terrorist organization ``must be reexamined'' 
since they shared ``the same goal: to overthrow the criminal regime'' 
of President Bashar al-Assad.\19\ This defense of Jabhat al-Nusrah is a 
short-term deal with the devil. Al-Qaeda's long-term vision of 
establishing a radical Islamic emirate in the Levant--and, indeed 
further afield wherever it can--is incompatible with the more moderate 
religious views of most Syrians.
---------------------------------------------------------------------------
    \18\ Riyadh made the comments in an undated YouTube video. See, for 
example, Bill Roggio, ``Free Syrian Army Commander Praises Al Nusrah 
Front as `Brothers,' '' Long War Journal, March 30, 2013.
    \19\ ``Syrian Opposition Urges U.S. to Reconsider Al-Nusrah Move,'' 
Hurriyet Daily News (Turkey), December 12, 2012.
---------------------------------------------------------------------------
    While the number of American citizens traveling to Syria appears to 
be limited, at least at the moment, the increase in Europeans with 
potential access to the United States--including through the Visa 
Waiver Program--presents a serious counterterrorism challenge. It is 
incumbent on the United States and its European allies to continue to 
identify the names of these foreign fighters (including variations in 
spelling and cover names), share intelligence, ensure they are on 
appropriate watch lists, monitor their activities, and capture them if 
they return to the West. As suggested by the recent Boston bombers and 
several previous terrorists in the United States (such as Faisal 
Shahzad and Umar Farouk Abdulmutallab), not all radicalized individuals 
flying into the United States make it onto watch lists. U.S. and 
European intelligence on Syrian extremists is currently spotty, making 
it important to increase human and signals intelligence collection 
capabilities over the next year to track individuals traveling into--
and out of--Syria.
    In the long run, the threat to the United States from Syria will 
likely increase. Even if the Assad regime is overthrown, the war will 
almost certainly continue in a different form, as sub-state groups like 
Jabhat al-Nusrah compete for control of the state and attempt to spread 
their ideology across the region.
    Again, thank you for allowing me to appear before you today, and 
I'd be happy to take your questions.

    Mr. King. Thank you very much, Dr. Jones.
    Mr. Robin Simcox is a research fellow at the Henry Jackson 
Society in London, a bipartisan British-based think tank. I 
have had up privilege of attending Henry Jackson Society 
meetings in this country and again, an outstanding 
organization.
    Mr. Simcox's work focuses on terrorism and National 
security, specifically al-Qaeda, al-Qaeda-inspired affiliates, 
and terrorism trends. He is also the author of ``Al Qaeda in 
the U.S.: A Complete Analysis of Terrorism Offenses'' and prior 
to joining the Henry Jackson Society, Mr. Simcox was a research 
fellow at the Center for Social Cohesion, a think tank studying 
extremism and terrorism in the United Kingdom.
    Mr. Simcox we welcome you here today, and look forward to 
your testimony. Thank you.

 STATEMENT OF ROBIN SIMCOX, RESEARCH FELLOW, THE HENRY JACKSON 
                            SOCIETY

    Mr. Simcox. Chairman King, Ranking Member Higgins, Members 
of the subcommittee, thank you very much for inviting me today 
to discuss this issue, which I think is of extreme relevance.
    The first thing I want to point out is that even though the 
numbers of Western European fighters currently in Syria may be 
relatively small, the impact they can have both in the region 
and on the U.S. homeland is significant.
    Now currently, there has not been any successful attacks in 
the United States that have taken place as a result of someone 
coming back from Syria, but there is evidence of plotting in 
other countries that I think should concern us greatly.
    Just last week, the Belgian security services intercepted a 
telephone call between an extremist based in Syria and one of 
his contacts back in Belgium which discuss the potential attack 
on the Brussels Palace of Justice.
    Back in October, there was a Jordanian plot that was 
disrupted that would have been potentially catastrophic. 
Individuals who had fought together in Syria and forged ties 
during that time of fighting jihad together in Syria were 
planning a series of attacks that would have included an attack 
on the U.S. Embassy in Amman.
    These individuals were an affiliate with al-Qaeda in Iraq 
and I believe it is absolutely impossible to understand what is 
going on in Syria and the threat that it poses without 
understanding al-Qaeda in Iraq.
    Abu Dua who is the amir of that group is now been suggested 
as even move into northern parts of Syria to solidify al-Qaeda 
in Iraq's control over operations in Syria itself.
    Obviously, another country which has a significant stake in 
Syria is Iran. The engagement and interaction between 
themselves and al-Qaeda I think is established. All I would say 
is that I think we shouldn't see it is necessarily a done deal 
that these two are going to work together completely 
harmoniously in the future.
    I don't believe they are especially natural allies and this 
plays itself out geopolitically at times. So you have Iran 
attempting to prop up Assad in Syria at the same time as al-
Qaeda are trying to overthrow him.
    You have al-Qaeda and Iraq who viscerally hate the Shi'i, 
target them consistently in regard the current Iraqi government 
as almost an Iranian branch or defacto Iranian government.
    Zawahiri has spoken on occasion of Iran not as an ally but 
as a potential strategic threat and so while the interaction is 
there, I think there are still opportunities for the United 
States to be able to divide them as well.
    I think in terms of Syrians--the Syrian conflict and 
members coming back to plot attacks in the United States and 
the West generally, I think we should be absolutely mindful of 
that.
    But there is one caveat I would like to add in my remarks 
today. My reports recently--I have written three reports on 
terrorism trends in the United Kingdom and the United States 
and a statistical analysis of the background of all individuals 
who have either been convicted in U.K. or U.S. courts or 
committed suicide attacks here.
    The vast majority of those who plot serious terrorist 
attacks against the West are those that have received training 
in foreign countries in Pakistan, Afghanistan, those sorts of 
places, but have then been dispatched back for a very specific 
operation in mind.
    Actually those that have combat experience in Kashmir, 
Chechnya, Bosnia, and the sorts of places weren't always the 
ones that were most likely to then come back and carry out 
terrorist attacks. Now obviously there is no guarantee that 
that is going to be the case in the future, but I just think it 
is something that is worth bearing in mind.
    I also think it is worth bearing in mind that the 
U.S.A.'s--the intervention or failure to intervene is going to 
be just as much a policy in this as intervention.
    Iraq is sometimes seen for example as having a radicalizing 
effect on Muslim communities yet Bosnia a war where the United 
States was much more reluctant to be involved was used by 
ideologues as proof that the West didn't care about the 
slaughter of Muslims taken place, in fact it acquiesced in it.
    So essentially, America is to deal with the fall-out from 
Syria and no matter its policies in the future and no matter 
how it decides to deal with this problem of Syrian jihadists 
returning.
    So I will wrap up there.
    Thank you again for hearing my thoughts on this today and I 
will be delighted to answer the questions you have.
    [The prepared statement of Mr. Simcox follows:]
                   Prepared Statement of Robin Simcox
                             22nd May 2013
    Chairman King, Members of the subcommittee, my sincere thanks for 
the opportunity to testify here today on issues which I believe should 
concern us all more and more. That concern should be shared not just by 
those who live in America, but by non-American citizens who care about 
America's security.
                          syria and the region
    The on-going conflict in Syria is quite rightly of significant 
concern to the international community. This is not just because tens 
of thousands have now died--but because of the presence of significant 
amount of jihadist militants, including members of al-Qaeda.
    The al-Qaeda group currently operating in Syria is called Jabhat 
al-Nusra, which controls parts of eastern Syria and has carried out a 
string of suicide bombings.
    Abu Mohammed al-Jawlani, Jabhat al-Nusra's leader, last month 
pledged allegiance to the emir of al-Qaeda, Ayman al-Zawahiri.
    It is estimated that the number of Western fighters operating in 
Syria is in the low- to mid-hundreds. Despite these relatively small 
numbers, there are a multitude of reasons to be concerned about the 
potential fallout from Syria--not just in the region, but how it could 
impact the U.S. homeland.
    At present there have not been any attempted attacks on the United 
States by those who have fought in Syria. However, there is now 
evidence of other countries being targeted by those who have.
    The first is Belgium. Last week, it was reported that their 
security services intercepted a call from an extremist based in Syria, 
who was discussing a potential attack on the Brussels Palace of Justice 
with a contact in Belgium.
    Going further back, it was reported in October of last year that 
Jordanian authorities disrupted a significant plot against civilian and 
government targets, including potentially the U.S. Embassy in Amman.
    The Jordanian cell that connected in Syria was only thought to have 
been acquaintances prior to their shared experience fighting there. 
Afterwards, they had access to huge amounts of weaponry and explosives, 
as well as combat experience and a shared ideological inspiration to 
attack a foreign country.
    The Jordanian individuals in this plot were connected to al-Qaeda's 
affiliate in Iraq, and I believe it is impossible to consider the 
threat emanating from this region without considering what is happening 
in Iraq.
    The State Department has now designated Jabhat al-Nusra as an alias 
for al-Qaeda in Iraq. Abu Dua, the emir of that group, announced last 
month that Jabhat al-Nusra was simply a ``branch'' of al-Qaeda in Iraq. 
It has been reported in recent days that Abu Dua has now entered 
northern Syria in order to get an even stronger grip on al-Qaeda's 
operations there.
    Al-Qaeda in Iraq provides funding to Jabhat al-Nusra, as well as 
sharing fighters and the joint aspiration to overthrow Bashar al-Assad. 
However, the relationship between the two groups is not entirely 
straightforward. Al-Jawlani has distanced himself from Abu Dua's claim 
of Jabhat al-Nusra simply being an extension of al-Qaeda in Iraq.
    Furthermore, al-Jawlani's pledge of allegiance to al-Zawahiri does 
not necessarily make Jabhat al-Nusra a formal part of the al-Qaeda 
network. For example, members of al-Shabaab in Somalia pledged loyalty 
to al-Qaeda's emir--at that stage Osama bin Laden--2\1/2\ years before 
they were officially accepted by al-Qaeda as a formal franchise.
                                  iran
    The conflict in Syria contains significant influence from Iran, one 
of the biggest supporters of the Assad regime.
    Iranian links to al-Qaeda have come under review following last 
month's foiled train attack in Canada, and the suggestion that the two 
plotters were being guided by al-Qaeda elements in Iran.
    It would be surprising if the Canadian plot was Iranian government-
sanctioned. Al-Qaeda would not be willing to be used as a proxy by the 
Iranian government in the way that, for example, Hizbollah would. There 
is too much distrust on both sides. I believe it is more likely that 
Iran were either not aware of al-Qaeda's activities with regards to the 
Canadian plot, or they were and simply chose to look the other way.
    There is some truth in the suggestion that Iran's connections to 
al-Qaeda are often largely overlooked. The Shia-Sunni sectarian split 
is seen as making any collaboration between the two a non-starter. 
However, there is evidence of engagement on some level.
    For example, Osama bin Laden met with Imad Mughniyah, a senior 
member of Hizbollah, in the early 1990s. It is thought that al-Qaeda 
subsequently received explosives training from the group. Furthermore, 
Iran facilitated al-Qaeda members' travel in and out of Afghanistan 
prior to 9/11. Senior al-Qaeda leaders close to Osama bin Laden fled 
there after the invasion of Afghanistan, before being placed under a 
form of house arrest by early 2002.
    There is the possibility that Iran envisaged using some of these 
al-Qaeda operatives as a bargaining chip with the United States, or as 
a deterrent against attack on Iranian soil.
    Iran and al-Qaeda do also have shared enemies--the United States, 
Israel, and Saudi Arabia being the obvious ones. Therefore it is at 
least conceivable that Iran would allow al-Qaeda's operatives limited 
scope to undertake activities against their shared enemies in return 
for not targeting Iran itself.
    While many of the al-Qaeda operatives in Iran have now been 
released, it is certain that there is still an al-Qaeda presence there.
    However, I believe this potential for interaction should not 
distract us from the potentially significant differences that do still 
exist between the two. These differences have on occasion played 
themselves out geopolitically.
    In Syria, Iran is supporting Assad at a time al-Qaeda are 
attempting to overthrow him. Al-Zawahiri has publicly lambasted Iran's 
role in the conflict. The perception of an increasingly influential 
Iran is something that al-Zawahiri has been warning of for several 
years. Al-Zawahiri has also at times portrayed Iran as a strategic 
threat, rather than an ally.
    Al-Qaeda in Iraq has a visceral hatred for Iran, which it regards 
as being a de facto ruler of the current Iraqi government.
    Therefore, despite the interaction that certainly does exist 
between the two, there are still question marks concerning the precise 
nature of the relationship between al-Qaeda and Iran.
    However, there are also differences between franchises within al-
Qaeda itself.
    The complex dynamics between al-Qaeda in Iraq and Jabhat al-Nusra 
mirrors a wider ambiguity as to the precise dynamics between al-Qaeda's 
senior leadership and its affiliates.
    For example, in the documentation discovered at Abbottabad, the 
revulsion that members of al-Qaeda's core feel for their Iraqi 
franchise is clear, with suggestions that there is little operational 
interaction between the two.
    This is evidence of not only the increased importance of localised 
autonomy within the al-Qaeda movement today, but also the increased 
decentralisation of its leadership structure.
                               conclusion
    To conclude, let me address some of what should be key concerns for 
homeland security. In the short term: The impact of Western fighters 
returning from Syria. In the long term: The fallout from a perceived 
lack of involvement by the West.
    I have in recent years co-authored three reports on terrorism 
trends from the late 1990s onwards. This includes two editions of a 
publication called Islamist Terrorism: The British Connections, and 
most recently a publication called Al-Qaeda in the United States: A 
Complete Analysis of Terrorism Offenses. These reports provide a 
statistical analysis of the background of all individuals who were 
convicted in the United States and United Kingdom for Islamism or al-
Qaeda-related offenses, or who had committed suicide attacks there.
    As part of this most recent research I studied which of those who 
had fought in conflict zones abroad--for example in Chechnya, Bosnia, 
or Kashmir--then went on to attempt mass casualty terrorist attacks 
after leaving the battlefield.
    Those that have attacked, or tried to attack, the West tended to be 
cells who had received terrorist training abroad and then returned to 
their country of origin specifically to carry out an operation.
    In both the United Kingdom and United States, it was extremely rare 
for those with combat experience to try and launch domestic attacks 
once they returned home.
    This may seem like a glimmer of a silver lining, but it is worth 
stressing that there is no guarantee that this will remain the case.
    The war in Syria could have other knock-on effects. For example, as 
with the jihad of the 1980s and 1990s, Syria will give legitimacy to a 
new generation of fighters. Those who have fought there could go on to 
become key ideologues, with their experiences in Syria serving as an 
inspiration for future generations of aspiring militants. This is 
precisely what happened with conflicts such as those in Afghanistan and 
Kashmir, and there is no reason to think Syria will be different.
    Furthermore, it is worth remembering that inaction can have just as 
much impact as intervention. It is often assumed that U.S. intervention 
in Iraq had a radicalising effect on Muslim communities. Yet consider 
the radicalising impact of a less-discussed war: That in Bosnia. The 
West had considerably less involvement in Bosnia than it did in Iraq 
and yet, in Europe, ideologues attempted to persuade Muslim communities 
that Western inaction meant Western acquiescence in the slaughter of 
Bosnian Muslims.
    Therefore, there remains a host of things to concern us about the 
fallout from Syria in both the short and long term. Thank you all for 
listening to my thoughts on this today, and I would be delighted to 
answer any questions you may have.

    Mr. King. Thank you Mr. Simcox.
    I would just mentioned that Chairman McCaul and I jointly 
attended in the Henry Jackson Society and both of us were 
extremely impressed by your work.
    The society in general, but your work in particular, 
particularly that volume you put together, which I have to 
admit, I am still working my way through. If anyone wants to 
see a detailed compilation, well you did it. So, thank you.
    Mr. Simcox. Thank you.
    Mr. Tom Joscelyn is a senior fellow at the Foundation for 
the Defense of Democracies, a nonpartisan institution focused 
on National security and foreign policy, which was founded 
shortly after the September 11, 2011 terrorist attacks. He is 
also the senior editor of the Long War Journal.
    Mr. Joscelyn is a terrorism analyst and writer whose 
research focuses on how al-Qaeda and its affiliates operate 
around the world.
    Mr. Joscelyn served as senior terrorism advisor for Mayor 
Giuliani's 2008 presidential campaign, and in 2006 he was named 
one of Claremont Institute's Lincoln Fellows.
    He also has been extremely helpful to this committee, has 
testified before, and Mr. Joscelyn, welcome you back again 
today. Thank you.

STATEMENT OF THOMAS JOSCELYN, SENIOR FELLOW, FOUNDATION FOR THE 
                     DEFENSE OF DEMOCRACIES

    Mr. Joscelyn. Well, thank you for having me back, 
Congressman King and Ranking Member Higgins and other Members 
of the subcommittee.
    I am going to focus my comments mainly on al-Qaeda and Iran 
because this is really I think a pretty widely misunderstood 
topic. I think both of your comments were right on the money in 
terms of emphasizing that there are numerous areas where they 
have divergent interests----
    Mr. King. If I could interrupt for just one second to say 
that that was certainly the main concern of Ranking Member 
Higgins when he came to me with this whole new element of Iran. 
So you in particular, we will be looking forward to your 
testimony.
    Mr. Joscelyn. Sure, sure. Let me give you a little bit of a 
historical perspective first because I think in order to 
understand how al-Qaeda and Iran collude together despite their 
differences, you have to take a longer view. I am going to get 
to the more recent plots, but you have to take a longer view.
    Going back to the early 1990s, and this is all documented 
in the 9/11 Commission report--actually pages 60 to 61, 128, 
and 240 to 241--where they discuss in detail how al-Qaeda and 
Iran actually forged an agreement to collude against their 
common enemies. Okay?
    This first agreement was actually forged in late 1992 or 
1993 when al-Qaeda was stationed in the Sudan at the time. It 
had numerous ramifications for how al-Qaeda evolved.
    In fact, part of the agreement led to senior al-Qaeda 
operatives traveling--this is again, according to the 9/11 
Commission--traveling to both Lebanon and Iran to receive 
explosives training which was then used in the 1998 embassy 
bombings. Okay? So this is a matter of historical record.
    I would say in addition to the 9/11 Commission report when 
I look at the long view of the relationship other building 
blocks I look to--towards are actually the trial transcripts 
that came out of the embassy bombing trial in the spring of 
2001 in New York, other documents were produced in the course 
of that litigation, I look back to the Clinton administration's 
original indictment of al-Qaeda November 4, 1998.
    I look back to the CIA's documents that have been 
declassified from the 1990s. I look to the FBI's declassified 
documents of 1990s. In other words what I am trying to say here 
is for the subcommittee is that there is this voluminous 
material that you have to look at in order to understand the 
relationship over a longer horizon and that even though they 
have had diverging interests and have actually come into 
conflict at times there are still numerous instances where 
actually the two have colluded.
    So looking at the current state of al-Qaeda and Iran, this 
is a fascinating part of what we focus on at the Long War 
Journal is a very granule analysis of individual terrorists so 
we have been trying to track who these guys are in Iran, the 
senior al-Qaeda leaders in Iran.
    Actually the Obama administration's Treasury Department and 
State Department going back to July 2011, has laid out in very 
great detail how this relationship works.
    I think the Treasury Department and the State Department 
actually deserve a lot of credit for really blazing the trail 
in terms of understanding what is going on inside Iran today.
    In a series of designations the Treasury Department, which 
is subjected to a very rigorous process came to the conclusion 
in July 2011, that in fact al-Qaeda and Iran have an agreement, 
have an explicit agreement that allows senior al-Qaeda 
operatives to operate inside Iran.
    That designation in July 2011 was followed up with a reward 
by the State Department in December 2011 of $10 million for the 
head of that network, Yasin Al Suri.
    It was followed up in February 2012 by designation by the 
Treasury Department designating Iran's Ministry of Intelligence 
and Security for their support to al-Qaeda. Okay, so this is 
again U.S. Government official position at this point.
    Then in October 2012 the Treasury Department came back 
again and designated the new head of al-Qaeda in Iran in that 
network and that the new head of al-Qaeda in Iran right now as 
we sit here is a guy named Muhsin al Fadhli who was a Kuwaiti 
who actually is so trusted within al-Qaeda he was one of the 
few terrorists that actually had foreknowledge of the 9/11 
attacks. So this is a guy who was a big fish in the al-Qaeda 
world.
    Just quickly going through the plots you will see my 
testimony would try to do is outline for you, I try to connect 
the dots between what the Treasury Department and the State 
Government said about al-Qaeda and Iran is a relationship, the 
network and how it functions, and actual specific plots that 
have gone beyond Iraq and Afghanistan.
    These are plots that have come at the West and one of the 
first things I found was the 2010 plot ordered by Osama bin 
Laden, which was intended to have a Mumbai-style attacks on 
European cities, actually used the facilitation network in Iran 
and according to the New York Times and other credible 
reporting, Iran actually provided safe haven to some of the 
plotters involved in that attack. Okay?
    Going forward to the Canadian plot that you have mentioned 
and expressed concern about--and rightfully so, Congressman--
the reporting that has come out says that at least one of those 
plotters, not only did they receive direction and guidance from 
al-Qaeda members in Iran, but at least one of them traveled, 
according to press reporting, to Zahadan, which is in eastern 
Iran.
    Zahadan is actually a hub for al-Qaeda and Iran, as it long 
has been to al-Qaeda-affiliated groups. It is one of their--
basically their transportation nodes that they use to shuttle 
fighters around. So that sticks out as a red flag to me.
    The third thing I would like to say is that earlier this 
month that Egyptian interior minister came out with news that 
broke up an al-Qaeda plot against the American Embassy and the 
French Embassy in Cairo. These embassies in Cairo.
    He didn't provide many details about what actually happened 
in the plot but he identified that at least one of the plotters 
had trained, received military training in Iran and Pakistan, 
and he also named a key al-Qaeda point of contact for them as a 
guy named Dawud al Asadi.
    Now being the nerd, this actually struck a chord with me 
when I saw this because that actually is the alias for the head 
of al-Qaeda in Iran today. Okay. It is actually Muhsin al 
Fadhli, one of his key aliases.
    So what I am saying here is there is a huge Government 
literature, U.S. Government literature in the Treasury and 
State Department outlining this network inside Iran and the 
focus of my testimony is to show how that network has actually 
facilitated plots not just in Iraq and Afganistan, but also 
abroad in the West and even in our own hemisphere.
    Thank you.
    [The prepared statement of Mr. Joscelyn follows:]
                 Prepared Statement of Thomas Joscelyn
                              May 22, 2013
    Chairman King, Ranking Member Higgins, and Members of the 
committee, thank you for inviting me here today to discuss the threat 
posed by al-Qaeda's operations inside Iran and Syria. These are complex 
topics that require a careful evaluation of the facts, and even then 
there is much we do not know. Yet, it is clear that al-Qaeda's networks 
in Syria and Iran threaten American interests in various ways.
    My testimony can be boiled down to two points. First, al-Qaeda is 
fighting to establish a safe haven that covers parts of both Iraq and 
Syria and, if the terror network is successful, it will most likely 
increase the threat to the U.S. homeland. The effects of al-Qaeda's 
growth in Syria have already been felt by neighboring countries. And 
European officials have expressed their concern that al-Qaeda's network 
inside Syria could be used to launch attacks against their countries.
    Second, while Iran's proxies and al-Qaeda are at odds inside Syria, 
the two have repeatedly colluded since the early 1990s. Under the Obama 
administration, the Treasury and State Departments have repeatedly 
highlighted an ``agreement'' between the Iranian regime and al-Qaeda 
that allows senior terrorists to operate on Iranian soil.
    Al-Qaeda's Iran-based network has not only facilitated the movement 
of terrorists to the battlefields of Iraq and Afghanistan, but has also 
been implicated in plots against the West and against Western interests 
elsewhere. In my testimony today, I am going to highlight three 
specific examples: Al-Qaeda's 2010 Mumbai-style plot against European 
cities, the al-Qaeda plot broken up in Canada in April, and the foiled 
plot against the U.S. and French Embassies in Cairo earlier this month. 
In all three instances, there are reported ties between the plotters 
and al-Qaeda operatives inside Iran. This does not mean that Iranian 
officials planned these acts of terror. But the clear implication is 
that Iran's provision of safe haven has allowed al-Qaeda terrorists to 
coordinate plots far beyond the Middle East, including just north of 
our border.
                           al-qaeda in syria
    Al-Qaeda did not start the Syrian rebellion, which comprises a 
number of groups. My written testimony focuses specifically on al-
Qaeda's activities inside Syria. The growth of al-Qaeda's Syrian wing, 
the Al Nusrah Front, is alarming. Al-Qaeda has clearly capitalized on 
the violence. Al-Qaeda emir Ayman al Zawahiri has repeatedly emphasized 
the importance of the effort to topple Bashar al Assad's regime. In 
February 2012, for instance, Zawahiri urged jihadists to make their way 
to Syria to fight the ``pernicious, cancerous regime.''\1\ Just a few 
months earlier, in late 2011, the Al Nusrah Front was established by 
Al-Qaeda in Iraq (AQI), an al-Qaeda affiliate that has sworn fealty to 
al-Qaeda's senior leadership.\2\ In April of this year, Abu Muhammad al 
Julani, the head of the Al Nusrah Front, also reaffirmed his oath of 
loyalty to Zawahiri in an audio recording.\3\ Make no mistake about it: 
The Al Nusrah Front is al-Qaeda.
---------------------------------------------------------------------------
    \1\ Jason Burke, ``Al-Qaida leader Zawahiri urges Muslim support 
for Syrian uprising,'' The Guardian, February 12, 2012. See: http://
www.guardian.co.uk/world/2012/feb/12/alqaida-zawahiri-support-syrian-
uprising.
    \2\ State Department Press Statement, ``Terrorist Designations of 
the al-Nusrah Front as an Alias for al-Qa'ida in Iraq,'' December 11, 
2012. See: http://www.state.gov/r/pa/prs/ps/2012/12/201759.htm
    \3\ State Department Media Note, ``Terrorist Designation of Al-
Nusrah Front Leader Muhammad Al-Jawlani,'' May 16, 2013. See: http://
www.state.gov/r/pa/prs/ps/2013/05/209499.htm. For a discussion of al 
Julani's statement, see: Thomas Joscelyn, ``Al Nusrah Front leader 
renews allegiance to al-Qaeda, rejects new name,'' The Long War 
Journal, April 10, 2013. See: http://www.longwarjournal.org/archives/
2013/04/al_nusrah_front_lead.php.
---------------------------------------------------------------------------
    While the Al Nusrah Front's resources are largely devoted to the 
fighting inside Syria, we have already witnessed the effects of al-
Qaeda's expansion beyond Syria's borders. As the Al Nusrah Front has 
ramped up its operations, AQI has also increased its operational tempo 
inside Iraq.\4\ In other words, AQI's operations in Iraq have not 
suffered even as the group has taken on a larger role inside Syria. 
This indicates that al-Qaeda's overall capacity for violence has 
greatly increased inside both countries since late 2011.
---------------------------------------------------------------------------
    \4\ See, for example: Greg Jaffe, ``Iraq attacks raise specter of 
al-Qaeda's return,'' The Washington Post, July 23, 2012. See: http://
www.washingtonpost.com/world/national-security/iraq-attacks-raise-
specter-of-al-qaedas-return/2012/07/23/gJQAVgB74W_story.html.
---------------------------------------------------------------------------
    Other neighboring states are feeling the effects as well. Consider 
just one example. Late last year, AQI plotted a complex series of 
attacks inside Jordan, with the ultimate target being the U.S. Embassy. 
According to The Washington Post, the plotters had fought inside Syria 
and carried their ``new skills and a changed perspective toward their 
native country'' back home with them.\5\ AQI's recruiting and 
facilitation network inside Jordan plays a significant role in the Al 
Nusrah Front's operations, making it likely that returnees will 
continue to pose a threat for the foreseeable future. The Al Nusrah 
Front poses security challenges for Syria's other neighbors as well. 
And the Al Nusrah Front's tentacles stretch far beyond Syria's 
immediate neighborhood. The group is pulling in fighters from numerous 
other countries throughout the Middle East and North Africa.\6\
---------------------------------------------------------------------------
    \5\ Joby Warrick, ``In foiled Jordanian terror plot, officials see 
hand of resurgent al-Qaeda in Iraq,'' The Washington Post, December 2, 
2012. See: http://www.washingtonpost.com/world/national-security/in-
jordanian-terror-plot-officials-see-hand-of-resurgent-al-qaeda-in-iraq/
2012/12/02/43f1698c-3421-11e2-bb9b-288a310849ee_story.html.
    \6\ The Al Nusrah Front is being assisted by Chechens and others, 
too. There are even credible reports of jihadists from China traveling 
to Syria to fight.
---------------------------------------------------------------------------
    European officials have sounded the alarm concerning the Al Nusrah 
Front's Western recruits. In an interview with Spiegel Online in April, 
German Interior Minister Hans-Peter Friedrich said that authorities 
were aware ``of calls for those Europeans who have been trained in 
battle'' in Syria ``to return home and pursue jihad.''\7\ Friedrich 
added, ``We are following this development with great concern.'' Other 
European officials have expressed similar concerns.
---------------------------------------------------------------------------
    \7\ Matthias Gebauer and Veit Medick, ``Interior Minister: Boston 
Points to `Dangerous Phenomenon','' Spiegel Online, April 25, 2013. 
See: http://www.spiegel.de/international/germany/german-minister-says-
authorities-concerned-about-lone-wolf-terrorists-a-896493-2.html.
---------------------------------------------------------------------------
    Thus, al-Qaeda's arm in Syria has already impacted the security of 
neighboring countries and added a new threat to European nations. But 
we've been asked to assess the threat to the U.S. homeland. While I am 
not aware of any specific plots against the homeland that have been 
tied to al-Qaeda's presence in Syria so far, the lessons of the past 
are plain to see. At least three observations concerning the potential 
threat emanating from Syria come to mind.
    First, the 9/11 Commission stressed in its final report that 
sanctuaries are necessary for large-scale terrorist plotting.\8\ ``Many 
details . . . illustrate the direct and indirect value of the Afghan 
sanctuary to al-Qaeda in preparing the 9/11 attack and other 
operations,'' the commission found.\9\
---------------------------------------------------------------------------
    \8\ 9/11 Commission Report, pp. 365-374.
    \9\ 9/11 Commission Report, pp. 366.
---------------------------------------------------------------------------
    It was for this reason that the commission recommended that the 
U.S. Government craft a strategy for disrupting terrorist sanctuaries. 
When the commission published its final report in 2004, there was a 
palpable fear that Iraq would become the next Afghanistan. ``If, for 
example, Iraq becomes a failed state, it will go to the top of the list 
of places that are breeding grounds for attacks against Americans at 
home,'' the commission wrote.\10\ We could make the same observation 
about Syria (and Iraq) today. Al-Qaeda's affiliate is attempting to 
establish a safe haven stretching across both countries. If al-Qaeda is 
successful, and this is not a certainty at this point, then this will 
almost certainly lead to new plots against the U.S. homeland.
---------------------------------------------------------------------------
    \10\ 9/11 Commission Report, p. 367.
---------------------------------------------------------------------------
    Second, we have already seen the connection between gains made by 
al-Qaeda's affiliates on the ground ``over there'' and the threat to 
Americans ``over here.''\11\ The most striking example of this can be 
found inside Yemen, where al-Qaeda in the Arabian Peninsula (AQAP) made 
significant advances beginning in 2009. Yet even as AQAP rose in 
prominence, some counterterrorism analysts assumed that the threat to 
American interests was confined to inside Yemen. AQAP's attempted 
bombing of Flight 253 on Christmas day 2009 changed that thinking. Here 
is what the Senate Select Committee on Intelligence found in its 
analysis of the intelligence failures leading up to that attempted 
attack: ``Prior to the 12/25 plot, counterterrorism analysts at NCTC, 
CIA, and NSA were focused on the threat of terrorist attacks in Yemen, 
but were not focused on the possibility of AQAP attacks against the 
U.S. homeland.'' The 12/25 plot is just one of several by AQAP against 
the homeland. We should not make the same analytic mistake with respect 
to other al-Qaeda affiliates, whether they are in Syria, Iraq, or 
elsewhere. This does not mean that these affiliates will immediately 
devote resources to attacks on the U.S. homeland, but the potential is 
always there.
---------------------------------------------------------------------------
    \11\ This ``over there''-``over here'' dynamic was first used in 
the 9/11 Commission's final report. See p. 362.
---------------------------------------------------------------------------
    Third, a violent rebellion inside Syria has already been tied to a 
catastrophic terrorist attack on the U.S. homeland--albeit indirectly. 
Consider the following history. One of the paths to 9/11 began in Syria 
in the early 1980s, when the Assad family's regime brutally crushed a 
rebellion launched by the Syrian Muslim Brotherhood. Members of the 
Brotherhood were forced to flee to neighboring states and Europe. Some 
of them evolved into elite al-Qaeda operatives.
    One such former Syrian Muslim Brother is named Mohammed Zammar, a 
key recruiter of al-Qaeda's Hamburg cell, which provided the suicide 
hijack pilots for the 9/11 operation. One of Zammar's fellow Syrian 
Brothers, Mamoun Darkazanli, has been identified as an important backer 
of the Hamburg cell and served as an imam at the mosque where Mohammed 
Atta and his fellow hijackers regularly met. Al-Qaeda's cell in Spain 
at the time of 9/11 was run by a former Syrian Muslim Brother named 
Imad Yarkas, who was convicted on terrorism charges. And one of 
Yarkas's minions, also a former Syrian Muslim Brother, may have 
performed surveillance on the World Trade Center in 1997 that was used 
to plot the 9/11 attack.
    Still another former Syrian Brother who rose through al-Qaeda's 
ranks is an ideologue named Mustafa Setmariam Nasar (a.k.a. Abu Musab 
al Suri), who was tied to al-Qaeda's terrorist plotting inside Europe, 
including the 2004 Madrid train bombings and the 2005 attacks in 
London. Nasar played a prominent role in al-Qaeda's operations prior to 
being detained in 2005 and transferred to Syrian custody. Nasar is a 
widely influential jihadist thinker and a key advocate of small-scale 
terrorist attacks inside the West. He was reportedly freed by the Assad 
regime in the wake of the current rebellion.\12\
---------------------------------------------------------------------------
    \12\ David Samuels, ``The New Mastermind of Jihad,'' The Wall 
Street Journal, April 6, 2012. See: http://online.wsj.com/article/
SB10001424052702303299604577323750859163544.html.
---------------------------------------------------------------------------
    In sum, the Syrian civil war is likely providing new talent for al-
Qaeda's international operations and has led to established threats 
like Nasar being freed. We cannot know with certainty if or when al-
Qaeda operatives inside Syria will attempt to launch an attack against 
the U.S. homeland. And America's defenses have greatly improved since 
9/11, making it more difficult for such an attack to succeed. However, 
we should be mindful that the Syrian conflict opens new possibilities 
for al-Qaeda, which is always probing our defenses for a weakness.
                       al-qaeda's network in iran
    There is no doubt that Iran and al-Qaeda are on opposite sides of 
the Syrian war today. Iran supports Bashar al Assad's crumbling regime, 
while al-Qaeda's Al Nusrah Front is one of the leading insurgency 
groups opposed to Assad. This obvious conflict of interest must create 
new tension between al-Qaeda and Iran. It may very well lead their 
relationship in a new direction. However, it would be a mistake to 
assume, absent significant evidence, that the fight in Syria will 
necessarily end the relationship between the Iranian regime and al-
Qaeda, which has always simultaneously entailed both mistrust and 
collusion.
    In fact, al-Qaeda and Iran have frequently worked together even in 
the face of divergent interests. For example, Iran allowed some al-
Qaeda leaders to operate on its soil following the 9/11 attacks, but 
placed them under a form of house arrest in 2003. This reportedly 
prompted Osama bin Laden to threaten the Iranians with violence if they 
did not release al-Qaeda leaders and al-Qaeda family members from 
custody. The Iranians did not release all of the al-Qaeda members from 
house arrest, but the two still found common ground for cooperation. 
Then, in 2009, al-Qaeda kidnapped an Iranian diplomat, holding him 
hostage in order to force the Iranians' hand in freeing these same al-
Qaeda members. This led to a hostage exchange between the two. But 
despite such antagonistic episodes, Iran and al-Qaeda have repeatedly 
cooperated when it suits their common interests.
    Under the Obama administration, the U.S. Treasury Department has 
led the way in exposing al-Qaeda's Iran-based network and the agreement 
that led to its existence. Since July 2011, the Treasury Department has 
issued three separate designations targeting al-Qaeda's Iran-based 
network. It is important to note that this network remains active under 
an ``agreement'' between Iran and al-Qaeda, even as the two support 
opposite sides in the Syrian war. In addition, the State Department has 
repeatedly pointed to this same agreement, issuing rewards for al-Qaeda 
leaders inside Iran.
The Treasury Department Targets Iran's ``Secret Deal'' With al-Qaeda
    On July 28, 2011, the Treasury Department designated six al-Qaeda 
members who formed the core of al-Qaeda's Iran-based network at the 
time.\13\ Some of the terrorists are based elsewhere, but work with 
Iran-based facilitators to move fighters and money. The Treasury 
Department explained that this al-Qaeda network is ``headed by Ezedin 
Abdel Aziz Khalil, a prominent Iran-based al-Qaeda facilitator, 
operating under an agreement between al-Qaeda and the Iranian 
government.'' Khalil is otherwise known as Yasin al Suri.
---------------------------------------------------------------------------
    \13\ See U.S. Treasury Department Press Release, ``Treasury Targets 
Key Al-Qa'ida Funding and Support Network Using Iran as a Critical 
Transit Point,'' July 28, 2011. The press release can be found online 
at: http://www.treasury.gov/press-center/press-releases/Pages/
tg1261.aspx (last accessed May 20, 2013).
---------------------------------------------------------------------------
    ``Iran is the leading state sponsor of terrorism in the world 
today,'' Under Secretary for Terrorism and Financial Intelligence David 
S. Cohen said when announcing this designation. ``By exposing Iran's 
secret deal with al-Qaeda allowing it to funnel funds and operatives 
through its territory, we are illuminating yet another aspect of Iran's 
unmatched support for terrorism,'' Cohen explained. He continued: 
``Today's action also seeks to disrupt this key network and deny al-
Qaeda's senior leadership much-needed support.''
    The Treasury Department described Iran as ``a critical transit 
point for funding to support al-Qaeda's activities in Afghanistan and 
Pakistan'' and noted that ``Iranian authorities maintain a relationship 
with Khalil and have permitted him to operate within Iran's borders 
since 2005.'' Khalil's activities included moving ``money and recruits 
from across the Middle East into Iran, then on to Pakistan,'' where 
they served other senior al-Qaeda leaders.
    The Treasury Department hinted at the game Iranian authorities play 
in their relationship with al-Qaeda. Khalil ``works with the Iranian 
government to arrange releases of al-Qaeda personnel from Iranian 
prisons.'' After they are released, ``the Iranian government transfers 
them to Khalil, who then facilitates their travel to Pakistan.''
    One of the al-Qaeda leaders then working with Khalil and included 
in the July 2011 designation was Atiyah Abd al Rahman, who was 
subsequently killed in a drone strike the following month, on August 
22, 2011 in North Waziristan, Pakistan.\14\ According to the Treasury 
Department, Rahman was al-Qaeda's ``overall commander in Pakistan's 
tribal areas and as of late 2010, the leader of al-Qaeda in North and 
South Waziristan, Pakistan.'' The Treasury Department added: ``Rahman 
was previously appointed by Osama bin Laden to serve as al-Qaeda's 
emissary in Iran, a position which allowed him to travel in and out of 
Iran with the permission of Iranian officials.''
---------------------------------------------------------------------------
    \14\ Bill Roggio, ``Al Qaeda announces death of Atiyah Abd al 
Rahman,'' The Long War Journal, December 1, 2011. See: http://
www.longwarjournal.org/archives/2011/12/al_qaeda_- 
announces_d.php.
---------------------------------------------------------------------------
    A little more than two weeks prior to the Treasury Department's 
designation, The Wall Street Journal reported that Rahman was al-
Qaeda's ``operations chief'' and was working with bin Laden to assemble 
a terrorist cell capable of hitting America on the tenth anniversary of 
the Sept. 11, 2001 attacks.\15\ According to the newspaper, the 
intelligence tying Rahman to the plot was found in communications 
recovered during the May 2011 U.S. raid on bin Laden's safe house in 
Abbottabad, Pakistan. Anonymous officials told The Wall Street Journal 
that the ``plans were only in the discussion phase'' and there were no 
``signs the nascent plot ever went beyond the early planning.''
---------------------------------------------------------------------------
    \15\ Siobhan Gorman, ``Bin Laden Plotted New Attack,'' The Wall 
Street Journal, July 15, 2011. See: http://online.wsj.com/article/
SB10001424052702304521304576446213098582284.html.
---------------------------------------------------------------------------
The Treasury Department Designates Iran's MOIS for Supporting al-Qaeda, 
        Among Other Acts
    On February 16, 2012, the U.S. Treasury Department designated the 
Iranian Ministry of Intelligence and Security (MOIS) ``for its support 
to terrorist groups as well as its central role in perpetrating human 
rights abuses against the citizens of Iran and its role in supporting 
the Syrian regime as it continues to commit human rights abuses against 
the people of Syria.''\16\
---------------------------------------------------------------------------
    \16\ U.S. Treasury Department Press Release, ``Treasury Designates 
Iranian Ministry of Intelligence and Security for Human Rights Abuses 
and Support for Terrorism,'' February 16, 2012. See: http://
www.treasury.gov/press-center/press-releases/Pages/tg1424.aspx.
---------------------------------------------------------------------------
    Al-Qaeda and its affiliate, al-Qaeda in Iraq, are among the 
terrorist groups supported by the MOIS, which is Iran's chief 
intelligence agency. ``Today we have designated the MOIS for abusing 
the basic human rights of Iranian citizens and exporting its vicious 
practices to support the Syrian regime's abhorrent crackdown on its own 
population,'' Under Secretary for Terrorism and Financial Intelligence 
David S. Cohen explained in a press release. Cohen added: ``In 
addition, we are designating the MOIS for its support to terrorist 
groups, including al-Qaeda, al-Qaeda in Iraq, Hizballah and HAMAS, 
again exposing the extent of Iran's sponsorship of terrorism as a 
matter of Iranian state policy.''
    The MOIS is assisting al-Qaeda in a variety of ways. The Treasury 
Department revealed that ``MOIS has facilitated the movement of al-
Qaeda operatives in Iran and provided them with documents, 
identification cards, and passports.'' In addition, the MOIS has 
``provided money and weapons to al-Qaeda in Iraq (AQI) . . . and 
negotiated prisoner releases of AQI operatives.''
The Treasury Department ``Further Exposes'' Iran-al-Qaeda Relationship
    On October 18, 2012, the U.S. Treasury Department designated Adel 
Radi Saqr al Wahabi al Harbi, who is ``a key member of an al-Qaeda 
network operating in Iran and led by Iran-based al-Qaeda facilitator 
Muhsin al Fadhli.''\17\ This is the same network that was previously 
headed by Ezedin Abdel Aziz Khalil (a.k.a. Yasin al Suri), as revealed 
in the Treasury Department's July 2011 designation discussed above. Al 
Fadhli took over as chief of al-Qaeda's Iran-based network in late 
2011, after the U.S. Government openly identified and offered a reward 
for his predecessor.
---------------------------------------------------------------------------
    \17\ U.S. Treasury Department Press Release, ``Treasury Further 
Exposes Iran-Based Al-Qa'ida Network,'' October 18, 2012. See: http://
www.treasury.gov/press-center/press-releases/Pages/tg1741.aspx
---------------------------------------------------------------------------
    Under Secretary for Terrorism and Financial Intelligence David S. 
Cohen explained that the October 2012 designation built upon the July 
2011 designation and ``further exposes al-Qaeda's critically important 
Iran-based funding and facilitation network.'' Cohen added: ``We will 
continue targeting this crucial source of al-Qaeda's funding and 
support, as well as highlight Iran's on-going complicity in this 
network's operation.''
    Muhsin al Fadhli is a long-time al-Qaeda operative who was 
previously designated by the U.S. Government in 2005. Al Fadhli is so 
trusted within al-Qaeda that he was one of the few terrorists with 
foreknowledge of the 9/11 attacks. When he was first designated in 
2005, al Fadhli was ``considered an al-Qaeda leader in the Gulf'' who 
``provided support to Iraq-based fighters for attacks against'' the 
U.S.-led Coalition. Al Fadhli was also a ``major facilitator'' for 
deceased AQI [al-Qaeda in Iraq] leader Abu Musab al Zarqawi. And prior 
to his involvement in the Iraqi insurgency, al Fadhli ``was involved in 
several terrorist attacks that took place in October 2002 including the 
attacks on the French ship MV Limburg and against U.S. Marines on 
Faylaka Island in Kuwait.''
    Al Fadhli ``began working with al-Qaeda's Iran-based facilitation 
network in 2009 and was later arrested by the Iranians,'' according to 
the Treasury Department. Al Fadhli ``was subsequently released by the 
Iranians in 2011 and went on to assume the leadership of the 
facilitation network from Yasin al Suri later that year.'' Today, al 
Fadhli's Iran-based network provides ``funding for al-Qaeda activities 
in Afghanistan and Pakistan'', and moves ``fighters and money through 
Turkey to support al-Qaeda-affiliated elements in Syria.'' Al Fadhli is 
also ``leveraging his extensive network of Kuwaiti jihadist donors to 
send money to Syria via Turkey,'' according to Treasury.
    Al Harbi serves as al Fadhli's deputy. In that capacity, according 
to Treasury, al Harbi ``facilitates the travel of extremists to 
Afghanistan or Iraq via Iran on behalf of al-Qaeda, and is believed to 
have sought funds to support al-Qaeda attacks.'' Al Harbi joined al-
Qaeda's network in Iran in 2011, but was previously added to Saudi 
Arabia's Most Wanted List. The Saudi Ministry of Interior charged al 
Harbi with ``traveling to Afghanistan to join al-Qaeda and providing 
technical support on the Internet to the terrorist group.''
Explanation of the ``Agreement'' Between Iran and al-Qaeda
    The Treasury Department's October 2012 announcement contained new 
details concerning the ``agreement'' between Iran and al-Qaeda. ``Under 
the terms of the agreement between al-Qaeda and Iran,'' Treasury 
reported, ``al-Qaeda must refrain from conducting any operations within 
Iranian territory and recruiting operatives inside Iran while keeping 
Iranian authorities informed of their activities.''
    ``In return,'' Treasury continued, ``the Government of Iran gave 
the Iran-based al-Qaeda network freedom of operation and uninhibited 
ability to travel for extremists and their families.'' If al-Qaeda 
members ``violate these terms'' they ``run the risk of being detained 
by Iranian authorities.''
    The previous head of the network, Ezedin Abdel Aziz Khalil (a.k.a. 
Yasin al Suri), ``agreed to the terms of this agreement with Iran with 
the knowledge of now-deceased al-Qaeda leader 'Atiyah 'Abd al Rahman.'' 
Rahman, who was killed in a drone strike in August 2011, is discussed 
above. Despite the U.S. Government's efforts, however, Treasury says 
that ``Iran continues to allow al-Qaeda to operate a core pipeline that 
moves al-Qaeda money and fighters through Iran to support al-Qaeda 
activities in South Asia.'' And ``this network also sends funding and 
fighters to Syria.''
   al-qaeda's network in iran tied to plots against western interests
    Under the Obama administration, the Treasury and State Departments 
have made it clear that al-Qaeda's network inside Iran plays a vital 
role in shuttling terrorists to and from the Middle East and South 
Asia. In this section, I am going to extend this analysis, pointing to 
ties between this same network and three plots against Western 
interests outside of war zones. The first plot was in 2010, when al-
Qaeda sought to launch Mumbai-style attacks against Western cities. The 
al-Qaeda operatives selected to take part in the attacks used Iranian 
soil to transit to and from northern Pakistan. After the plot was 
disrupted, some of them were sheltered inside Iran as well.
    The second al-Qaeda plot was foiled by Canadian authorities in 
April. Canadian officials revealed that the plotters received 
``direction and guidance'' from al-Qaeda members in Iran. The third al-
Qaeda plot was broken up by Egyptian authorities earlier this month. 
The cell responsible reportedly targeted the U.S. and French Embassies 
in Cairo and received assistance from a senior al-Qaeda leader who may 
be the same terrorist who currently heads al-Qaeda's network in Iran.
2010 Mumbai-style Plot Against Europe
    In March 2012, an alleged al-Qaeda operative named Ahmad Wali 
Siddiqui went on trial in Koblenz, Germany.\18\ Siddiqui was reportedly 
slated to take part in one of the final plots ordered by Osama bin 
Laden, who wanted to launch Mumbai-style attacks in European cities. 
Siddiqui's testimony, as well as other evidence, demonstrated that this 
al-Qaeda cell used the very same Iran-based terror network that, 
according to the Treasury Department, operates ``under an agreement 
between al-Qaeda and the Iranian government.''
---------------------------------------------------------------------------
    \18\ This section is based on an article I co-authored for The 
Weekly Standard. Benjamin Weinthal and Thomas Joscelyn, ``Al Qaeda's 
Network in Iran,'' The Weekly Standard, April 2, 2012. See: http://
www.weeklystandard.com/articles/al-qaeda-s-network-iran_634428.html
---------------------------------------------------------------------------
    During his testimony, Siddiqui, a dual German and Afghan citizen, 
discussed the time he and his fellow plotters spent at the same mosque 
attended by al-Qaeda's 9/11 Hamburg cell, as well as his own 
transformation into a violent jihadist. ``We wanted to fight . . . 
against Americans,'' Siddiqui told the court. Siddiqui initially joined 
the Islamic Movement of Uzbekistan (IMU), a terrorist organization 
closely allied with al-Qaeda, in northern Pakistan. He quickly migrated 
to al-Qaeda itself. According to the German indictment, senior 
terrorists decided to send Siddiqui back to Germany to take part in a 
potentially devastating attack intended ``to weaken Europe's economy.'' 
After Siddiqui was captured in Afghanistan, he revealed the nascent 
plot.
    In testimony before the court, Siddiqui described how he and his 
co-conspirators planned different travel routes in order to avoid 
suspicion beginning in early 2009. But their travels had a common 
theme: Iran was their principal gateway to jihad.
    According to Siddiqui, two of his co-conspirators--Rami Makanesi 
and Naamen Meziche--traveled from Vienna to Tehran in order ``to not 
get caught.'' Their trip was booked in a Hamburg travel office by an 
unknown Iranian. Siddiqui explained that the pair could not travel 
directly to Pakistan because they are Arabs. Pakistani authorities 
would have questioned the duo's intentions and perhaps detained them, 
but by traveling through Iran they avoided such scrutiny.
    When Makanesi and Meziche arrived in Tehran, Siddiqui explained, 
they called a facilitator known as ``Dr. Mamoud,'' who works for the 
IMU. The two were ushered to Zahedan, a city on the eastern border of 
Iran, close to both Afghanistan and Pakistan. There, Siddiqui says, Dr. 
Mamoud ``welcomed them.''
    Zahedan is a well-known hub of al-Qaeda and IMU activity. The IMU 
has repeatedly used the city's Makki mosque, the largest Sunni mosque 
in Iran, to shuttle fighters into Afghanistan and Pakistan. Al-Qaeda 
has an established presence there, too. For instance, before his May 
2011 suicide at Guantanamo, an Afghan detainee named Inayatullah 
allegedly admitted to authorities that he was al-Qaeda's emir of 
Zahedan, from where he delivered recruits to senior al-Qaeda leaders in 
Pakistan. Even since Inayatullah's capture, al-Qaeda fighters have 
continued to travel through Zahedan, as Makanesi and Meziche did. And, 
as explained below, the al-Qaeda plot disrupted in Canada in April 
reportedly involved this very same hub in Zahedan.
    Meziche has long been known to European counterterrorism officials. 
His father-in-law, Mohamed al-Fazazi, was a radical preacher whose 
sermons and spiritual advice guided al-Qaeda's 9/11 Hamburg cell. 
Meziche was reportedly close to Mohamed Atta, the lead hijacker in the 
9/11 attacks, and Ramzi bin al-Shibh, al-Qaeda's point man for the 9/11 
operation. Bin al-Shibh reportedly tried to call Meziche just days 
before the 9/11 attacks. Meziche was later implicated in al-Qaeda in 
Iraq's operations after European officials found that he had been 
recruiting fighters for the organization.
    According to Der Spiegel, senior al-Qaeda terrorists instructed 
Meziche and another member of the cell, an Iranian national named 
Shahab Dashti, to travel to Iran where ``they would be told where in 
Europe they were to be deployed to begin building structures for bin 
Laden's organization.''\19\ Once in Iran, Dashti ``was to undergo 
facial plastic surgery'' because he had already appeared in a 
propaganda video and was therefore recognizable to European 
authorities. However, Dashti did not get a chance to fool Western 
intelligence officials, because he was killed in a drone strike in 
northern Pakistan in early October 2010, after the Mumbai-style plot 
was uncovered.
---------------------------------------------------------------------------
    \19\ Hubert Gude, ``Key Al-Qaida Witness: Hamburg Islamist to Stand 
Trial in Germany,'' Spiegel Online, February 28, 2012. See: http://
www.spiegel.de/international/germany/key-al-qaida-witness-hamburg-
islamist-to-stand-trial-in-germany-a-817984.html.
---------------------------------------------------------------------------
    Initial reports indicated that Meziche was killed in the same drone 
strike, but he survived it and was sheltered by the Iranians before 
being captured inside Pakistan. The New York Times reported in January 
2012 that Meziche and several other members of the cell are ``waiting 
in Iran, trying to return to Europe.''\20\ European authorities were 
not eager to see them come back, as they posed obvious security risks. 
Anonymous U.S. officials interviewed by the Times described Meziche and 
one of his Iran-based compatriots as ``lower mid-level'' al-Qaeda 
operatives. ``These two have been involved in al-Qaeda external 
operations activities for some time now,'' one official said. Citing 
multiple intelligence sources, The New York Times explained that ``Iran 
appears to be harboring them in hopes that, when and if they leave, 
they will cause trouble in the West.''
---------------------------------------------------------------------------
    \20\ Souad Mekhennet, ``Hiding in Iran, Raising Suspicions in 
Europe,'' The New York Times, January 10, 2012. See: http://
www.nytimes.com/2012/01/10/world/middleeast/hiding-in-iran-raising-
suspicions-in-europe.html?_r=0.
---------------------------------------------------------------------------
    Rami Makanesi, who set off for Tehran with Meziche, was arrested in 
Pakistan in 2010 and sentenced to nearly 5 years in prison last year by 
a Frankfurt court. Makanesi has his own ties to Iran-based al-Qaeda 
operatives. According to Guido Steinberg, a researcher in the Middle 
East and North Africa division of the German Institute for 
International Security Affairs, Makanesi met a top al-Qaeda operative 
known as Ezedin Abdel Aziz Khalil (a.k.a. Yasin al Suri) in February 
2010. Khalil is the same al-Qaeda leader who was designated by the 
Treasury Department in July 2011. Steinberg, in his analysis brief for 
IHS Jane's, a military and intelligence consulting group, explains that 
Khalil asked Makanesi to ``accompany him to Iran.'' Makanesi said that 
Khalil ``was responsible for funneling money and recruits via Iran and 
that he was known to cooperate with the Iranian government.''
    When the Treasury Department designated Khalil in 2011, it also 
designated several other members of al-Qaeda who utilize the Iran-based 
network. As explained above, one of them was Atiyah Abd al Rahman, who 
was subsequently killed in a drone strike in northern Pakistan. The 
Treasury Department explained: ``Rahman was previously appointed by 
Osama bin Laden to serve as al-Qaeda's emissary in Iran, a position 
which allowed him to travel in and out of Iran with the permission of 
Iranian officials.'' Makanesi seems to have at least known Rahman. 
According to Steinberg, Makanesi has explained that Rahman ``was known 
to have lived in Iran for many years.''
    The evidence in this matter is clear. The al-Qaeda cell that was 
selected to take part in one of Osama bin Laden's last plots against 
the West was facilitated by the same Iran-based network that the 
Treasury and State Departments have repeatedly pointed to as evidence 
of collusion between al-Qaeda and the Iranian regime. This does not 
mean that Iranian officials orchestrated the plot or were otherwise 
directly involved. Then again, we cannot rule out the possibility. At a 
minimum, al-Qaeda's network in Iran played a key role.
     disrupted plot against trains in the united states and canada
    On April 22, 2013, the Royal Canadian Mounted Police (RCMP) 
announced that they had disrupted an al-Qaeda plot to derail a 
passenger train traveling from New York to Toronto.\21\ Canadian 
officials directly implicated al-Qaeda in the plot. ``This is the first 
known al-Qaeda planned attack that we've experienced in Canada,'' 
Superintendent Doug Best told reporters.\22\ ``Had this plot been 
carried out, it would have resulted in innocent people being killed or 
seriously injured,'' Assistant RCMP Commissioner James Malizia said. 
RCMP chief superintendent Jennifer Strachan explained that the plot 
``was definitely in the planning stage but not imminent.''\23\ Strachan 
elaborated: ``We are alleging that these two individuals took steps and 
conducted activities to initiate a terrorist attack. They watched 
trains and railways.''
---------------------------------------------------------------------------
    \21\ Royal Canadian Mounted Police, ``RCMP Arrests Two Individuals 
for Terrorism-related Charges,'' April 22, 2013. See: http://www.rcmp-
grc.gc.ca/news-nouvelles/2013/04-22-ns-sn-eng.htm.
    \22\ CBS News and Associated Press, ``2 arrested in terror plot 
against Canadian passenger train, police say,'' April 22, 2013. See: 
http://www.cbsnews.com/8301-202_162-57580804/2-arrested-in-terror-plot-
against-canadian-passenger-train-police-say/.
    \23\ Ibid.
---------------------------------------------------------------------------
    Canadian officials added a key allegation: The plotters received 
``direction and guidance'' from al-Qaeda members in Iran.
    According to Reuters, investigators think that one of the suspects 
``traveled to Iran on a trip that was directly relevant to the 
investigation of the alleged plot.''\24\ Reuters added: ``U.S. national 
security sources close to the investigation said that was a reference 
to a network of low- to middle-level al-Qaeda fixers and `facilitators' 
based in the town of Zahedan, close to Iran's borders with Afghanistan 
and Pakistan, that moves money and fighters through Iran to support its 
activities in South Asia.''
---------------------------------------------------------------------------
    \24\ Mark Hosenball, ``Canada train plot suspect traveled to Iran: 
U.S. officials,'' Reuters, April 25, 2013. See: http://www.reuters.com/
article/2013/04/25/us-arrests-iran-idUSBRE93- O1D320130425.
---------------------------------------------------------------------------
    This is, once again, the same al-Qaeda network that operates under 
an ``agreement'' with the Iranian regime. Canadian officials say they 
have not find evidence implicating Iranian officials in the plot. But 
Iran's provision of safe haven to al-Qaeda is a significant factor by 
itself. More details about the al-Qaeda's cells contacts inside Iran 
will hopefully emerge during the forthcoming court proceedings.
   disrupted plot against the american and french embassies in cairo
    On May 11, 2013, Egyptian interior minister Mohammed Ibrahim 
announced that an al-Qaeda plot against a Western embassy and other 
targets had been disrupted. The interior minister said that two 
suspected terrorists are being held for questioning and a third is 
under house arrest. The Egyptian government did not initially say which 
embassy the three-man cell targeted. The New York Times reported, 
however, that ``a Western official said the Egyptians had privately 
identified the embassy as the United States Embassy in Cairo.''\25\ 
Subsequently, the Egyptians identified both the American and French 
Embassies as targets.
---------------------------------------------------------------------------
    \25\ Ben Hubbard, ``3 Arrested in Plot to Bomb Egyptian Cities and 
Embassy,'' The New York Times, May 11, 2013. See: http://
www.nytimes.com/2013/05/12/world/middleeast/egypt-arrests-3-in-plot-to-
attack-cities-and-an-embassy.html.
---------------------------------------------------------------------------
    The Egyptian interior ministry revealed three significant details 
about the plotters. First, the Egyptians alleged that they had been 
trained in the north Sinai, with the intention of fighting inside 
Syria. This again demonstrates how the war in Syria is having ripple 
effects throughout the region. Second, Ibrahim said the al-Qaeda cell 
was in contact with the so-called ``Nasr City Cell,'' which has its own 
ties to al-Qaeda. The Nasr City Cell has also been tied to the 
September 11, 2012 terrorist attack in Benghazi, Libya.\26\ Third, 
Ibrahim pointed to two ties to al-Qaeda's network inside Iran.
---------------------------------------------------------------------------
    \6\ Thomas Joscelyn, ``Egyptian interior minister: Al Qaeda cell 
plotted suicide attack against Western embassy,'' The Long War Journal, 
May 11, 2013. See: http://www.longwarjournal.org/archives/2013/05/
egyptian_interior_mi.php.
---------------------------------------------------------------------------
    Ibrahim said that one member of the al-Qaeda cell had received 
``military training'' inside Iran, as well as Pakistan. The interior 
minister also identified a key point of contact for the cell as a 
senior al-Qaeda terrorist known as Dawud al Asadi, who told the trio 
``to get in touch with a terrorist cell in the Cairo neighborhood of 
Nasr City.''\27\
---------------------------------------------------------------------------
    \27\ Ben Hubbard, ``3 Arrested in Plot to Bomb Egyptian Cities and 
Embassy,'' The New York Times, May 11, 2013. See: http://
www.nytimes.com/2013/05/12/world/middleeast/egypt-arrests-3-in-plot-to-
attack-cities-and-an-embassy.html.
---------------------------------------------------------------------------
    Ibrahim did not offer many details about al Asadi, other than to 
describe him as ``the head of al-Qaeda in some west Asian countries,'' 
which is somewhat vague. Dawud al Asadi is, in fact, one of the aliases 
used by Muhsin al Fadhli, the head of al-Qaeda's network in Iran.\28\ 
Al Fadhli is described above. He was designated as the head of al-
Qaeda's network inside Iran in October 2012. Therefore, if the al Asadi 
mentioned by the Egyptian interior minister is in fact Muhsin al 
Fadhli, then this is yet another indication that al-Qaeda's leadership 
inside Iran is projecting terror far beyond the mullahs' borders.
---------------------------------------------------------------------------
    \28\ State Department Rewards for Justice, ``Wanted, Information 
leading to the location of Muhsin al-Fadhli, Up to $7 Million Reward.'' 
See: http://www.rewardsforjustice.net/index.cfm?page=fadhli.

    Mr. King. Thank you, Mr. Joscelyn.
    Our next witness, Mr. Barack Barfi, is a research fellow at 
the New America Foundation and focuses on Arab and Islamic 
affairs. Previously Mr. Barfi was a visiting fellow at the 
Brookings Doha Center and prior to that was a producer with ABC 
News affiliates in the Middle East where he reported from 
countries such as Iraq and Lebanon.
    Throughout his academic and media careers, Mr. Barfi has 
had extensive travel and access to local ears in the Middle 
East, has experienced first-hand the dilemmas confronting the 
region.
    Mr. Barfi, pleased to have you here today. I look forward 
to your testimony. Thank you.

    STATEMENT OF BARAK BARFI, RESEARCH FELLOW, NEW AMERICA 
                           FOUNDATION

    Mr. Barfi. Thank you, Mr. Chairman, Ranking Member Higgins, 
and Members of the committee. Thank you for inviting me to 
testify today about al-Qaeda's operations in Syria.
    I would particularly like to commend Chairman King for the 
perfect pronunciation of my name, something my teachers could 
not do in school.
    [Laughter.]
    Mr. King. I am good for something, I guess.
    Mr. Barfi. After the organization was stripped of its 
Afghan sanctuary following the 9/11 attacks, and its core 
leadership decimated in Pakistan, the group decided to embrace 
a more decentralized model that focused on regional affiliates.
    These branches have succeeded in keeping al-Qaeda relevant 
even as it absorbs lethal hits around the world.
    The Middle East revolutions known as the Arab Spring have 
posed new dilemmas for the organization. As the frustrated 
youth that was to fuel the al-Qaeda revolutions flocked to the 
streets in Egypt and Libya to overthrow long-ruling leaders, 
the jihadist narrative the organization parroted seemed 
increasingly irrelevant. With dreaded security services 
neutered, Arabs could control their own destinies without 
resorting to violence.
    But as has consistently happened in the decade since the 9/
11 attacks, al-Qaeda has been able to take advantage of events 
in the Middle East to reassert its importance.
    Today a Syrian civil war that has descended into urban 
anarchy has provided the organization a new theater to stage 
its operations. In a nation where the government controls less 
than a quarter of the country's territory, internal and 
external actors have been able to carve out spheres of 
influence.
    Al-Qaeda created the organization The Support Front for the 
People of the Levant, known locally as Jabhat al-Nusra, or JN, 
to front its activities in Syria.
    Despite its recent emergence, JN has a long history. It 
evolved from the networks the Jordanian Abu Musab al-Zarqawi 
established when he moved his operations from Afghanistan to 
Iraq following the American invasion of Kabul. JN emerged in 
January 2012 when a suicide bomber targeted Syrian security 
officials.
    Since then the group has carried out a number of suicide 
bombings, reaching into the regime's innermost sanctum. But it 
also has embraced conventional military tactics such as 
ambushes and assaults. Today, JN is considered one of the most 
effective rebel fighting forces.
    Al-Qaeda thrives on instability and establishes its 
presence in undergoverned spaces. Such factors have become 
basic staples in a country that inches closer to Somalification 
with every passing day. The government has receded, armed 
groups control much of the countryside, and social welfare no 
longer exists outside of a handful of cities and regions.
    Nevertheless, other indigenous geo-religious factors 
particular to Syria have drawn al-Qaeda there. Syria is ruled 
by a small Shi'i offshoot to which President al-Asad and 
leaders of the regime belong called Alawis.
    Pre-twentieth century Islamic scholars decree the sect's 
members heretics. Al-Qaeda's ideology has historically 
prioritized fighting Shi'i infidels to combatting Jews and 
Christians.
    Syria is also located at a strategic crossroads to which no 
other Arab state can lay claim. It borders several key 
countries including Israel, jihadists' arch foe. While other 
al-Qaeda affiliates are located in remote areas on the 
periphery of the Middle East, a Levantine branch would have the 
ability to expand out in several directions.
    While Syria has provided al-Qaeda a new haven, Syrians have 
proved receptive to its message. It should be stressed that 
much like in other havens, it is not the organization's 
ideology which is drawing it admirers. As the international 
community has abandoned Syrians to face a regime prepared to 
use all the weapons in its arsenal, they are increasingly 
willing to accept a lifeline from anyone prepared to offer them 
one.
    For much of the revolution, Syrians believed the Free 
Syrian Army known as the FSA would provide it. But as the armed 
struggle has stalled, the FSA has stumbled. Its units are 
making little progress on the battlefield. Worse, they have 
drawn the ire of a population exhausted by their abuses. Theft, 
kidnappings for ransom, and torture have become its motto.
    Everyday JN attracts new supporters dissatisfied with the 
FSA. They are drawn to its discipline, organization, and 
squeaky-clean image. JN's propensity to assist Syrians solve 
their problems, whether through mediation or aid, have also 
contributed to its popularity.
    It runs a social welfare division that provides goods and 
services to a war-torn population. These networks are much more 
efficient than ones managed by FSA units.
    The organization's battlefield successes have won it 
admiration as well. JN is the most effective rebel fighting 
unit. Its fighters are known for their bravery and dedication 
to the cause.
    During my latest trip to Syria, Syrians beamed about JN's 
contribution to the revolution. These factors make JN the most 
admired rebel unit in the field. As the revolution spirals into 
a cauldron of chaos, the organization will only win over 
Syrians to its cause.
    Unlike the FSA, JN's ultimate goal is not the overthrow of 
the Syrian regime. It seeks to carve out a new haven for al-
Qaeda where the organization can operate in the heart of the 
Arab world. It is also bent on taking the fight to neighboring 
Israel.
    But any attempt to do so will likely be met by resistance 
from FSA units sensitive to Western appeals. As a result, JN 
will have to combat other FSA units to ensure its freedom of 
mobility. For these reasons, JN does not currently pose a 
threat to the American homeland. The organization needs to 
focus on consolidating its local position before it can focus 
on the far enemy.
    JN nevertheless poses problems for American interests in 
the Middle East. For Syria is not Las Vegas. What happens in 
Syria will not stay in Syria. The violence there is bound to 
spill over into neighboring countries, some of which are 
American allies. As such, containing JN should be a National 
interest.
    With that I would be happy to answer any of your questions.
    [The prepared statement of Mr. Barfi follows:]
                   Prepared Statement of Barak Barfi
    Mr. Chairman, Members of the committee, thank you for inviting me 
to testify today about al-Qaeda's operations in Syria. After the 
organization was stripped of its Afghan sanctuary following the 9/11 
attacks, and its core leadership decimated in Pakistan, the group 
decided to embrace a more decentralized model that focused on regional 
affiliates. These branches have succeeded in keeping al-Qaeda relevant 
even as it absorbs lethal hits around the world.
    The Middle East revolutions known as the Arab Spring have posed new 
dilemmas for the organization. As the frustrated youth that was to fuel 
the al-Qaeda revolutions flocked to the streets in Egypt and Libya to 
overthrow long-ruling leaders, the jihadist narrative the organization 
parroted seemed increasingly irrelevant. With dreaded security services 
neutered, Arabs could control their destinies without resorting to 
violence.
    But as has consistently happened in the decade since it rose to 
international prominence, al-Qaeda has been able to take advantage of 
events in the Middle East to reassert its importance. Today a Syrian 
civil war that has descended into urban anarchy has provided the 
organization a new theater to stage its operations. In a nation where 
the Government controls less than a quarter of the country's territory, 
internal and external actors have been able to carve out spheres of 
influence.
    One of those is al-Qaeda. The organization's leader Ayman al-
Zawahiri has released several videos offering encouragement for Syria's 
revolution, while urging foreign jihadists to fight there. His appeals 
seem to be working. In March, British Foreign Minister William Hague 
said that ``Syria today has become the top destination for jihadists.''
                           al-qaeda in syria
    Al-Qaeda created the organization The Support Front for the People 
of the Levant, known locally as Jabhat al-Nusra (JN), to front its 
activities in Syria. The late al-Qaeda founder Osama bin Laden 
recommended that the organization establish groups that did not bear 
its name because of the negative connotation associated with it in the 
aftermath of its Iraqi debacle.
    Despite its recent emergence, JN has a long history. It evolved 
from the networks the Jordanian Abu Musab al-Zarqawi established when 
he moved his operations from Afghanistan to Iraq following the American 
invasion of Kabul. He established cells in Levantine countries to 
funnel foreigners to Iraq. Following the outbreak of the Syrian 
revolution in March 2011, al-Qaeda's Iraqi affiliate sent between 150-
200 operatives to Syria to establish a local infrastructure.
    JN emerged in January 2012 when a suicide bomber targeted Syrian 
security officials. Since then the group has carried out a number of 
suicide bombings, reaching into the regime's innermost sanctums. But it 
also has embraced conventional military tactics such as ambushes and 
assaults. Today, JN is considered one of the most effective rebel 
fighting forces numbering between 1,500-5,000. Though the group has 
drawn members from Iraq, Jordan, and the Caucus Mountain states, the 
majority of its foot soldiers are nevertheless Syrians. In April, its 
leader known as Abu Muhammad al-Julani pledged allegiance to al-Qaeda, 
an act which has sown some divisions within the organization.
                               why syria?
    Al-Qaeda thrives on instability and establishes its presence in 
ungoverned spaces. Such factors have become basic staples in a country 
that inches closer to Somalification with every passing day. The 
government has receded, armed groups control much of the countryside 
and social welfare no longer exists outside a handful of cities and 
regions.
    Nevertheless, other indigenous geo-religious factors particular to 
Syria have drawn al-Qaeda there. Syria is ruled by a small Shi'i 
offshoot known as Alawis to which President Bashar al-Asad belongs. 
Pre-twentieth century Islamic scholars decreed the sect's members 
heretics. Al-Qaeda'a ideology has historically prioritized fighting 
Shi'i infidels to combatting Jews and Christians. Moreover, by 
highlighting the sectarian nature of the conflict, JN can depict itself 
as protecting Sunnis from a Shi'i onslaught.
    Syria is located at a strategic crossroads to which no other Arab 
nation can lay claim. It borders several key countries including Saudi 
Arabia and Israel, jihadists' arch foe. While other al-Qaeda affiliates 
are located in remote areas on the periphery of the Middle East, a 
Levantine branch would have the ability to expand out in several 
directions.
    Syria will have no government for years at it increasingly becomes 
a Middle Eastern Somalia. JN's successes will allow al-Qaeda to carve 
out a sphere of influence unimpeded by a regime's attempts to 
neutralize it.
    Syria has an eschatological significance. Medieval Islamic 
literature predicts many apocalyptic battles will occur there, thus 
convincing jihadists seeking the ultimate martyrdom to flock to Syria.
                       why jn appeals to syrians
    While Syria has provided al-Qaeda a new haven, Syrians have proved 
receptive to its message. It should be stressed that much like in other 
theaters, it is not the organization's ideology which is drawing it 
admirers. As the international community has abandoned Syrians to face 
a regime prepared to use all the weapons in its arsenal, they are 
increasingly willing to accept a lifeline from anyone willing to offer 
them one.
    For much of the revolution, Syrians believed the rebel-led Free 
Syrian Army (FSA) would provide it. But as the armed struggle has 
stalled, the largely nationalist FSA has stumbled. Its units are making 
little progress on the battlefield. Worse, they have drawn the ire of a 
population exhausted by their abuses. Theft, kidnappings for ransom, 
and torture have become their motto.
    Everyday JN attracts new supporters dissatisfied with the FSA. They 
are drawn to its discipline, organization, and squeaky-clean image. 
JN's propensity to assist Syrians solve their problems, whether through 
mediation or aid, have also contributed to its popularity. It runs a 
social welfare division that provides goods and services to a war-torn 
population. These networks are much more efficient and responsive than 
ones managed by FSA units.
    The organization's battlefield successes have won it admiration as 
well. JN is the most effective rebel unit. Its fighters are known for 
their bravery and dedication to the cause. During my latest visit to 
Syria, Syrians beamed about JN's contribution to the revolution. These 
factors make JN the most admired rebel unit in the field. And as the 
revolution spirals into a cauldron of chaos, the organization will only 
win over Syrians to its cause.
                             modus operandi
    JN has established a hierarchical organization that comprises 
military, political, and religious committees. It is highly 
compartmentalized with members often not knowing those in other cells. 
It subjects prospective candidates to a rigorous initiation process, 
imbuing its members with a sense of duty and belonging.
    JN's operational influence in Syria is mixed. Though it pioneered 
the use of suicide bombings, most FSA units have eschewed such attacks. 
JN has been more successful in persuading rebel groups to embrace 
improvised explosive devices.
    Though JN has refused to join the FSA or other more Islamist-
orientated organizations, it nevertheless cooperates with rebel units. 
It participates in joint operations and amicably divides the spoils 
between them.
    Like other FSA units, JN operates in the open, hanging its shingle 
on the door. During a recent visit to Aleppo, I lived in the building 
next door to the one JN was occupying. Its fighters buzzed around the 
complex. Though it maintains operational secrecy and largely avoids the 
international media, it nevertheless maintains an open presence 
throughout Syria.
                           turning a new page
    Al-Qaeda's widespread bloodletting in Iraq tarnished the 
organization's image. The organization and other jihadists have sought 
to draw lessons from their failed Iraq experience. Their treatises are 
full of exhortations to avoid killing individuals from Syrian 
minorities allied to the regime. JN has heeded this advice. It has not 
targeted Alawi civilians, instead focusing on those who work for the 
regime. And unlike in Iraq, JN focuses exclusively on military targets, 
thus minimizing civilian casualties.
    The organization's religio-political program is purposefully vague 
to avoid alienating certain constituencies. It has not delineated a 
vision for a post-Asad Syria. In contrast, other puritanical groups 
known as Salafis have been much more explicit about the type of state 
they plan to build on the rubble of the one being destroyed. JN has 
nevertheless employed some vice squads in areas under its control.
    In embracing this middle path, JN seeks to avoid the pitfalls that 
sank its Iraqi sibling. The organization is cognizant that its success 
depends on ingratiating itself with the local population rather than 
ensuring its grip on society through a reign of terror. It remains to 
be seen if this is a short-term tactical shift or a permanent turn. 
Once JN has accomplished its transitional goal of overthrowing the 
regime it may seek to impose its views on its subjects.
                             the day after
    Unlike the FSA, JN's ultimate goal is not the overthrow of the 
Syrian regime. It seeks to carve out a new haven for al-Qaeda where the 
organization can operate in the heart of the Arab world. It is also 
bent on taking the fight to neighboring Israel. But any attempt to do 
so will likely be met by resistance from FSA units sensitive to Western 
appeals. As a result, JN will have to combat other FSA units to ensure 
its freedom of mobility. For these reasons, JN does not currently pose 
a threat to the American homeland. The organization needs to focus on 
consolidating its local position before it can focus on the far enemy.
    JN nevertheless poses problems for American interests in the Middle 
East. For Syria is not Las Vegas. What happens in Syria will not stay 
in Syria. The violence there is bound to spill over into neighboring 
countries, some of which are American allies. As such, containing JN 
should be a national interest.

    Mr. King. We thank, thank all of you for your testimony.
    I will begin the questioning.
    First on Syria, on the issue of foreign fighters, and with 
the porous borders particularly through Turkey, and with the 
threat of these foreign fighters returning to Europe and then 
coming to the United States with British passports, EU 
passports, visa waiver policies.
    What more do you think we should be doing? Do you believe 
that the European countries are as concerned about this as they 
should be? What do you see as the level of cooperation between 
Europe and the United States particularly regarding these, you 
know, the foreign fighters?
    To start we can go down, Dr. Jones, Mr. Simcox, Mr. 
Joscelyn, Mr. Barfi. If anyone cares to comment.
    Mr. Jones. Mr. Chairman, very briefly, I think in my 
conversations with several European ambassadors including from 
this town and then other government officials from Europe, I 
think they are extremely concerned about the both departure and 
then the inflow of foreign fighters coming to their countries 
from Europe. I do not believe however that they have in all 
cases a good reign on who they are and the total number of 
individuals coming in and coming out.
    Once they leave German soil or Swedish soil they may not 
have a particularly good insight about what is happening inside 
of Syria. So I think in this case, it is contingent on the 
United States to get information from sources on the ground in 
Syria. That does include any covert units from other countries 
whether they are from Jordan or from Saudi Arabia or from 
Turkey or from the United Arab Emirates that are actually on 
the ground in Syria.
    I think this is the biggest black hole for fighters going 
into and out of Syria is what are they doing and who are they 
talking to and what are their intentions based on what they are 
doing in Syria.
    I think that is where we have our biggest vagaries on what 
is going on and so in that sense I think probably not enough is 
being done in country to collect on and patch information on 
what is going on in Syria and the United States has very little 
eyes on in country.
    Again, I think that is a very big weakness of the United 
States--its inability to understand what is going on at Syria.
    Mr. King. Before we go on to the witnesses on this 
question, I make the maybe overly-generalized statement but my 
experience has been I know in our negotiations with Europeans 
often our European partners think we are too concerned about 
terror watch list, too concerned about who is coming over on 
planes to the United States.
    Is that diminished at all, and how is that going to affect 
something which is even more vague right now: Who is coming 
from Syria and who is not? I will ask if all of you can address 
that.
    Mr. Jones. Mr. Chairman, again I can only tell you what I 
have heard from several European ambassadors who are concerned 
about those numbers.
    Still, I think their external agencies and their external 
agency's presence in Syria in some cases especially with some 
of Nordic countries is not that good.
    So they may be concerned about individuals that they have a 
sense of, but they don't know the specifics in general what 
they are doing, which is why they come to people like me.
    Do you have any sense of what they are doing when they get 
to Syria? If they are asking me that question, they don't know.
    Mr. King. Well, we are asking you too, so----
    [Laughter.]
    Mr. Simcox.
    Mr. Simcox. First of all, you mentioned that the Europeans 
believe that the Americans are too worried about--Europeans 
aren't worried enough would be the way I look at it.
    We have no reason to be complacent in Europe about 
terrorism taking place within the European borders and we have 
no reason to be complacent about terrorism from Europe being 
exported to the States.
    European security agencies are extremely concerned though 
about what will happen to these fighters when they return. The 
other thing I think that is a big concern for them is what--how 
does this end in Syria and how does it impact in Europe in the 
long run? In terms of if there is a series of mini fiefdoms in 
the eastern parts of Syria, the al-Qaeda and al-Qaeda-
affiliated groups control is that then a new safe haven that 
Europeans are going to be able to go and train in--obviously 
via Turkey, ideally giving them access to training camps in a 
way that hasn't been possible probably since prior to 9/11.
    My sense is that unfortunately we are truly in guesswork 
when it comes to how many people are there from Europe and what 
they are doing and their intentions are when they get back. I 
think we are flying blind on that.
    Mr. King. Mr. Joscelyn, I know you are focused on Iran, 
going to come back to that in my second round if you want to--
--
    Mr. Barfi.
    I am sorry--you want to----
    Mr. Joscelyn. Actually I would, if I could, just something 
I----
    Mr. King. Absolutely.
    Mr. Joscelyn. I totally agree with what Seth and Robin were 
saying about the potential for new talent going to Syria. I 
think they are right on the money in what they say.
    I want to highlight something from my testimony too, which 
is what I call the return of old talent to the battlefield 
because of one of my concerns in all of this is there is 
credible threat reporting, credible press reporting, I am 
sorry, about a guy named Abu Musab al Suri, is his nom de 
guerre, otherwise known as Mustafa Setmariam Nasar, who is a 
chief al-Qaeda ideologue.
    He is known in al-Qaeda circles and in jihadist circles as 
one of the preeminent thinkers for how to come after the West. 
He was imprisoned in Syria before the rebellion there.
    I actually don't agree with the decision to send him to 
Syria for imprisonment and for reasons just like this, and 
there is credible reporting that he has been freed.
    This is the type of guy who I would be very concerned about 
if I were on your committee because he is a guy who has written 
at great length about creative ways to attack the West.
    There is all sorts of reporting that he was deeply involved 
with al-Qaeda in Europe prior to him being detained in 2005. 
There is a lot of credible reporting that he was involved in 
the Madrid train bombings in 2004, also the attacks in July 
2005 in London.
    So this is the return of what I will call old talent to the 
game for as a consequence of what is happening inside Syria. 
Another name I just want to throw out there, and this has not 
appeared anywhere publicly and this is just my own sort of 
nerdism, I guess, is a guy named Mohammad Zammar was a key 
recruiter for the Hamburg cell for 9/11.
    He was detained and shipped off to Syria and imprisoned by 
the Assad regime. I would take a keen interest in trying to 
find out if I were sitting in your shoes where he is today and 
if there is any classified information which I am not privy to 
about where he is and where he is going because Zummar was 
directly involved in 
9/11, he was imprisoned in Syria, and I would take a deep 
concern about where he is today.
    Mr. King. Thank you.
    Mr. Barfi.
    Mr. Barfi. The problem with Europeans going to Syria is we 
just can't get a handle on it. Once they leave their home 
countries they are pretty much going to fall off the radar. If 
you go to Turkey it is not like traveling to Pakistan. I mean 
it doesn't raise red flags, why are you going to Turkey? I want 
to see Europe or I want to go check out some nice islands, 
check out some ruins.
    Another problem is once they go to Turkey, you don't even 
know how they are going to cross. Are they going to cross using 
the official crossings or they going to cross orchard groves 
and across orchard groves and fields, which is a lot of people 
do that.
    I crossed legally on a trip to Syria. Some of the Syrians 
that I was with that took me in some parts of their family did 
not have passports so they could not leave the country 
officially from Syria to Turkey so they crossed through the 
fields and they came back through the fields when I went in. I 
crossed legally and they went to the fields.
    This is a phenomenon you will see all the time so you won't 
even see these people with any stamps and their passports that 
they have even been to Syria. So they are going to fall off the 
radar.
    I personally have not met any of these Europeans but I know 
a lot of people who have. You show up in these towns in these 
border towns in Turkey--I have a good friend to the taxi driver 
he said, ``Yes, I took a few French guys across the border the 
other day.''
    It is a big problem. We are not going to be able to find 
out what they are doing, what units they are hooking up with. 
All we are going to find out is a martyrdom notice on a 
jihadist website; XX so-and-so died fighting in so-and-so 
battle and he was from France or he was from Belgium.
    So it is a big problem. What are they doing there? What is 
going to happen when they come back? Are they going to 
radicalize others in the West? Are they going to bring back 
bomb-making training or whatnot and this is something we are 
going to have to understand when the blowback comes back, not 
when they are inside because it is just too hard to find out 
answers to those questions at this point in time.
    Mr. King. Mr. Barfi, in your testimony you say that you 
don't see any direct threat from JN to the United States. I 
would ask if the others if that is their consensus and is the 
main threat from foreign fighters and also are any of you aware 
of any support or any elements of this country who would 
support a Syrian al-Qaeda movement?
    Is there anything, any community in this country or any 
elements of support, for Syria al-Qaeda or JN in particular 
other than people just maybe radicalized generally, any 
particular support in this country for JN?
    Mr. Barfi. We haven't seen any incidences of this in the 
Muslim communities in America. As you know, most almost if not 
all the community here is moderate.
    We have not had the same radicalization problems as you 
have in Britain and to a lesser extent France and in the period 
since 
9/11, you have seen several attacks in--you have seen the 
bombing, the London bombings, the Madrid bombings and then I 
think your last year we had this lone wolf in France.
    We haven't had that other than the Boston bombing and these 
were guys who were lone wolf. They were not radicalized in a 
mosque and this is very important. They didn't go to a mosque. 
They didn't hear a preacher. There was no networks that 
followed them to certain places.
    They did this all on their own. So there was not a 
community to give them an infrastructure and the network. That 
is what is very important about the Boston bombings that we 
have to take away, sir.
    Mr. King. The main threat then you see from Syria would be 
the foreign fighters coming back through Europe and the United 
States, primarily, that should be our main homeland security 
focus right now. Do you agree with that?.
    Mr. Barfi. The problem--I am sorry, did you want to----
    Mr. King. Actually, the whole panel and I will end on that 
and I will go to the----
    Mr. Barfi. Then I will let the others handle it.
    Mr. Jones. Mr. Chairman, if I could just come in on this. I 
heard from reliable sources, although I take this with a grain 
of salt, probably no more than a dozen or so Americans have 
gone to Syria to fight possibly some with Jabhat al-Nusrah.
    That is concerning. The fact that we have had some is of 
concern. I think especially as the war continues as the Assad 
regime falls I would expect those numbers to go up rather than 
down.
    It is unclear what they will do when they leave, whether 
they will come back, whether they will go to North Africa, 
whether they will die in country, but I think the fact that we 
do have some Americans and we don't know the percentage. We 
know roughly a dozen out of 17, is it a dozen out of 50?
    We don't know the percentage of the total mass of fighters 
that have left the United States. But I would still say the 
fact that we have some of the facts, that that is probably 
going to increase because that has been the trend. It's because 
the war is likely to get worse before it gets better. It is a 
troubling trend and I don't believe we have the coverage over 
that as well as we should.
    Mr. Simcox. In regard to whether Jabhat al-Nusrah would 
look to attack the United States or members of that group 
coming back, I mean of course it would be--you could never 
dismiss it. It is an entirely rational and logical thing to 
fear.
    All I would say is that of the plots that have been against 
the United States and the United Kingdom and I have looked at 
them all in my research, the people who have attempted to 
attack the homeland have actually been those who didn't fight 
but trained in these areas and were then sent back with a very 
specific operation in mind.
    I think there is a couple of reasons why that may be. I 
think first of all may be in terms of those that are aspiring 
to attack the homeland now al-Qaeda has more--it doesn't have 
interest in using them as cannon fodder in local conflicts.
    The individuals that can travel back to the homeland and 
carry out operations are perhaps are of greater value to them 
than they were before. Maybe some of the individuals who fight 
in places like Syria but then don't go on to try and attack the 
homeland, maybe they feel they have done their stint that the 
time they fight, spend fighting jihadist abroad was their 
contribution to the overall effort and they don't have the same 
interest in attacking the homeland.
    I mean that is speculation and I think it is worth bearing 
in mind that we haven't seen a huge amount of people who fought 
abroad carry out attacks in the homeland.
    Briefly on the subject of radicalization in the United 
States, I mean it is true, there is no doubt about it, that 
Britain and Western Europe generally has had much greater 
problem with radicalization, our integration strategy to be 
frank just doesn't work as well as the American one.
    I don't think there is much doubt about that but at the 
same time in the research that I did recently, 54 percent of 
individuals who have been convicted in the United States or 
carried out suicide attacks were American citizens.
    So I would encourage that there is not complacency about 
this issue because even though there aren't the same networks 
as there are in Europe, there is still problems of 
radicalization in this country and I think it is one that we 
should always be wary of.
    Mr. Joscelyn. Just on the question of the potential threat 
of the Nusrah front to the homeland, I just want to interject a 
couple quick points, which I think it is right as Barak says 
here that basically most of the Nusrah Front is concentrated on 
fighting locally in the insurgency right now trying to 
consolidate its hold in inside Syria.
    My one interjection to that is to always be careful that 
al-Qaeda routinely uses these local insurgencies, these local 
fights, and then basically coalesces them into their global 
jihad. That is part of their strategy and given the head of all 
al-Nusrah front's ties to the head of al-Qaeda, I mean, al-
Zawahiri's allegiance to them and various other indications, 
you can never downplay the possibility that some portion of 
their assets even it is small compared to the overall effort 
will be used against us.
    I just want to interject one further thought along those 
lines. We have seen as you have talked about many times, 
Congressman, about the threat from al-Qaeda in the Arabian 
Peninsula in Yemen against the homeland.
    Well, prior to the Christmas day bomb plot in of December 
2009, there was a widespread assumption and I produced it in my 
testimony here for you, amongst the--in the intelligence 
community from the NCTC, CIA, NSA, and others of that the AQAP 
was going to be focused on--they were focused on the threat of 
terrorist sects in Yemen but were not focused on the 
possibility of AQAP attacks against the U.S. homeland.
    Well, AQAP was waging a local insurgency there in Yemen, 
still is, trying to consolidate its hold over territory and 
trying to come back from its getting knocked down and yet 
during all of that it still managed to come after us.
    So I don't know of any specific threats against U.S. 
homeland right now from the Nusrah front, I am just saying that 
we shouldn't assume that--including--when you have guys like I 
mentioned before senior al-Qaeda talent now back in the game in 
Syria, we shouldn't assume that they won't think about that at 
some point in time.
    Mr. King. I have gone way over. We are coming back for a 
second round.
    I would just say, Mr. Barfi, I am not certain yet on the 
Boston attack. That is still open on whether or not there was 
any radicalization within Boston. We don't know. We have gotten 
some other reports, but again, it is too preliminary. I 
wouldn't rule it out, that is all I am saying at this stage.
    With that, I would recognize the very patient Ranking 
Member, Mr. Higgins, for as much time as he wants.
    Mr. Higgins. No, I enjoyed it.
    Mr. Chairman, I would like to ask unanimous consent for the 
gentlelady from Texas to sit for the purpose of questioning and 
receiving testimony.
    Mr. King. Without objection.
    Mr. Higgins. We know from the 9/11 report that senior al-
Qaeda figures maintain close ties to Iranian security officials 
and had frequently traveled across Iran's border.
    At least 8 of the 14 Saudi operatives selected for 9/11 
operations traveled through Iran in the months before the 
attack. In recent years, Iran's ties to al-Qaeda has increased. 
In 2010, Iran reportedly began releasing detained al-Qaeda 
operatives.
    Furthermore, as many as 20 members of the bin Laden family 
have lived in the compound in Iran since September 11, 2001, 
while bin Laden's son and high-ranking advisors to his father 
have been able to easily slip in and out of the country.
    When the terrorists' train plot was thwarted before it was 
executed in Canada, Iran's foreign minister spokesman stated 
that there was no firm evidence of any Iranian involvement and 
groups such as al-Qaeda have no compatibility with Iran in both 
political and ideological fields.
    Well, I don't believe the foreign minister spokesperson. I 
don't believe the foreign minister. I don't believe the Iranian 
president, Ahmadinejad because they have a mutual enemy and it 
is us and Westerners.
    We need just to look at 9/11 and the death and destruction 
that was exacted on the United States in New York City, the 
murder of John Granville, a United States Agency for 
International Development Diplomat, in the Sudanese capital of 
Khartoum in 2009. He was targeted for one reason because he was 
an American and he was a Westerner. The thwarted a New York 
City subway plot in 2009 and most recently the Canadian train 
plot.
    You know, we are asking the question rhetorically in this 
committee as to whether or not al-Qaeda operatives pose any 
threat to the United States. I think we should get beyond the 
question and just insert the way it should be. The answer is 
yes.
    The question is: How imminent is that threat? In previous 
hearings--we had a hearing here about the Hezbollah presence 
which you know, acts as a proxy for Iran, Syria, and Venezuela, 
a violent jihadist group had a presence in Latin America.
    But in the hearing, it was disclosed that they also have a 
presence in 15 American cities and four major cities in Canada. 
We were told that we shouldn't be too concerned because that 
terrorist activity was limited to fundraising.
    Well, if you are a terrorist organization bent on 
destruction of Israel and the West and you are raising money, I 
don't see the distinction between raising money and actual 
terrorist plots because that money presumably is used to 
finance the terrorist plots that are directed at us.
    So I would just like to try to again, get beyond the 
pleasantries and the, you know, the subtleties of, you know, of 
whether or not al-Qaeda poses any threat and that is just to 
accept that they do and let's talk honestly and directly about 
how imminent that threat is.
    See, al-Qaeda is an organization much like Nazi Germany. 
You know, Nazis swore a personal oath to Adolf Hitler and it 
was thought that when he died that it ended. Same is true with 
al-Qaeda, but the problem is this: The post-bin Laden al-Qaeda 
is younger, more tech-savvy, more aggressive, and found in 
places where we previously never thought they were.
    Like we found in the investigation regarding the Boston 
Marathon bombers. So I just like to get beyond, you know, the 
niceties and let's deal with the black and white, and I would 
start with Dr. Jones.
    Mr. Jones. Very good points, Mr. Higgins.
    Briefly I would make two comments. One is, my personal 
assessment is when one looks at the al-Qaeda threat to the U.S. 
homeland the most severe threats today are coming from 
Pakistan, Yemen, and a few other locations.
    Not Iran, but on your question about whether the threat is 
imminent, I have looked carefully over the last several years 
and written on it, I do think the Iran contingent is 
significant to monitor. I would say it is not as imminent as it 
appears in several other places but I wanted to say a few other 
things.
    One is the fact that they have got Yasin Al Suri in Iranian 
territory is of concern. He has been involved in al-Qaeda 
plotting. He is a member of bin Laden's inner Shi'I; he is is 
still there. Yasin Al Suri, Muhsin al Fadhli, and a range of 
others, these are core al-Qaeda operatives in Iran that does 
present a threat.
    What is in it for Iran? I think the most dangerous prospect 
frankly from al-Qaeda's contingent in Iran is if there were to 
be a U.S. or Israeli strike against Iranian interests, that 
would probably increase my assessment of Iran's interest in 
using and encouraging Iranian al-Qaeda--proxies in Iran to 
attack.
    My sense is that they have been pretty cautious on this 
about getting involved, getting al-Qaeda involved in an attack 
for that very reason, not to encourage--increase the impetus 
for U.S. or Israeli strike. I think that would be one key issue 
to watch. A strike or greater tension might trigger Iran to 
even close its relationship with them.
    Just one last point. Again, I do think it is worth noting 
that there has been some tension between al-Qaeda and Iran on 
al-Qaeda and Iraq targeting of Shi'i which has been consistent 
and on the Jabhat al-Nusrah's attacks against Hezbollah and 
Iranians in Syria.
    So there have been tensions. The situation is complex. On 
your question about whether it is imminent, I would say no, not 
compared to other cases right now, but situations could change 
including elevation of the Israeli/U.S. and Iranian conflict 
which would make it more imminent in my view.
    Mr. Simcox. I would echo some of--much of Dr. Jones' 
comments and I think that the severe imminent threats do come 
from Yemen and Pakistan.
    What concerns me though about Iran in comparison to those 
countries is that we have a good working relationship with the 
Yemeni government in terms of intelligence sharing and those we 
target.
    Similarly in Pakistan the drone strikes have has helped 
degrade al-Qaeda's operations there. The problem is we don't 
have that with Iran and we don't--there is too much we don't 
know I feel about what is going on in Iran to be able to make a 
completely thorough assessment of how imminent the threat is.
    Now I would suggest that the main threat is still from 
Pakistan and Yemen but I wouldn't say that that is gonna be 
necessarily the case for the next 5 to 10 years because we know 
so little about their involvement in Iran, because obviously 
the relations between the United States and Iran are what they 
are.
    One other thing I would suggest is the interaction between 
al-Qaeda and Iran is also not--it doesn't necessarily have to 
be this way. There are opportunities I believe for the West to 
sow division and Dr. Jones mentioned the al-Qaeda and Iraq and 
Iranian hatred and I do believe it is a visceral hatred and the 
fact that in Syria at the moment obviously they are on 
competing sites.
    So extremely complex and not an easy one for the United 
States to figure out an effective response to, but I think 
there are both great threats but also potential opportunities.
    Mr. Joscelyn. Well, I come after it from a little bit of a 
different perspective in that there absolutely are numerous 
areas where the two are at loggerheads especially in Syria 
today, Iran and al-Qaeda and elsewhere.
    But I think again if you look back at the historical record 
what comes out over and over again since the early 1990s that 
these these two have been able to come to agreement on areas 
they can collude.
    That is the official position of the Obama administration, 
which as I said has really paved the way through the Treasury 
Department and the State Department to expose the current 
agreement which allows yes, you know, Syrians and others to 
operate inside Iran.
    I just want to read for the record what the Treasury 
Department said in its October 2012 announcement that says, 
``Under the terms of the agreements between al-Qaeda and Iran, 
al-Qaeda must refrain from conducting any operations within 
Iranian territory and recruiting operatives inside Iran while 
keeping Iranian authorities informed of their activities. In 
return--'' this is what the Treasury Department said, ``The 
government of Iran gave the Iran-based al-Qaeda network freedom 
of operation and the uninhibited ability to travel for 
extremists in their family.
    The threat to the al-Qaeda members there because Iran 
doesn't want to allow them to do whatever they want to do, they 
want to have some say in how this all goes is that if al-Qaeda 
members violate these terms they then run the risk of being 
detained by Iranian authorities.
    So again, this is part of the official U.S. Government 
record now directly contradicting exactly all of those quotes 
of the Congressman Higgins read off from the senior Iranian 
officials.
    Just pointing out that the Treasury Department, State 
Department, the Obama administration have already come out and 
said what they are saying, the Iranian officials are saying 
that this is wrong.
    One other quick note about al-Qaeda and Iraq, this is where 
this gets really so complicated. One of the things in all of 
this is yet absolutely true that Iran and and al-Qaeda were on 
the opposite sides in terms of the killings of Shiites within 
Iraq and that there is animosity there absolutely.
    But look back to February 2012 when the Treasury Department 
released its second designation of the Iran al-Qaeda 
relationship. The Treasury Department came out and said 
specifically that Iran's ministry of intelligence and security 
actually provided assistance not just for al-Qaeda but also 
members of al-Qaeda in Iraq.
    So they are a very duplicitous bunch who play double games 
in all these areas and you can't just assume away that 
differences of opinion are going to prevent collusion.
    Mr. Barfi. When we first heard reports that al-Qaeda 
operatives had moved to Iran, we were basically--analysts were 
basically puzzled because of the ideological constraints 
between the two sides.
    Al-Qaeda is very Shi'i and the Shi'i grows out of Salafi/
Wahhabi theology. The Iranian regime is a Shi'i theocracy, but 
over time, we have seen that Iran has used al-Qaeda as a tool 
and we don't know how far it will go to extend the use of that 
tool, and will it use it to bleed the West and particularly the 
United States?
    We have seen not only al-Qaeda core operatives active in 
Iran but we have also had reports that al-Qaeda affiliates have 
had relations with the Iranians, specifically AQAP. 
Specifically, a defector said that there was a lot of activity 
going back and forth between Iran and the organization.
    Again we see an ideological problem because we have now 
reports that the Iranian government is funding the Houthi 
rebellion in northern Yemen that has led by a Shi'i offshoot. 
That is much closer to Sunniism than the Shi'i who rule Iran.
    So we see ideological problems but we do also see pragmatic 
understandings or cooperation between the organizations and we 
will probably see that in the time to come also because there 
is a lot of senior operatives in al-Qaeda and remember the al-
Qaeda core has been decimated in Pakistan but those people in 
Iran, there is no drones flying over there, so they are not 
being killed.
    Mr. Higgins. Just a final thought. On April 22, 1 month 
ago, the Royal Canadian Mounted Police announced the arrest of 
two people in connection with plotting a terrorist attack on a 
passenger train, high-impact target, it travels from Toronto, 
90 miles from Buffalo through Niagara Falls, 20 miles from 
Buffalo, and into New York City, a place that has known the 
cruel fate of a terrorist attack.
    According to the Royal Canadian Mounted Police, the alleged 
terrorists were receiving assistance from al-Qaeda elements in 
Iran.
    With all due respect, gentlemen, that to me, is an imminent 
threat.
    I will yield back.
    Mr. King. Oh, I am sorry. Yield back?
    Mr. Higgins. Yes.
    Mr. King. I now recognize the gentleman from Utah, Mr. 
Stewart, who as a new Member of the committee has really shown 
extreme interest in this issue and I commend him for that and I 
now recognize him for his questioning.
    Mr. Stewart. Thank you, Mr. Chairman, and I speak for many 
when we recognize that you have been a National leader on this 
for many years and we appreciate that.
    To the witnesses, thank you for being with us today. Thanks 
for the sacrifice in being here and what you have told us and 
the expertise that you hold is important and so we appreciate 
an opportunity to spend a few minutes with you.
    Although I have to say it frustrates me just a little bit 
and I will explain what I mean by that and I don't mean it in a 
negative way but it illustrates that we live in a complicated 
world and this is a very complicated part of the world.
    It is dangerous, it is unpredictable, and it is frankly 
hard to sort out the good guys from the bad which is I think 
you have illustrated and talked about that today. You have JN, 
FSA, al-Qaeda, you talked about now Westerners who have gone in 
and joined the fight and that is even more complicated and more 
difficult when you try to predict the future because the 
reality is a very dynamic part of the world and that 
allegiances and loyalties can change and shift quickly and you 
may not know what the lay of the land is going to look like 
tomorrow even let alone a year or several years down the road.
    I was a pilot in the Air Force for 14 years. I have I think 
a general sense of the situation there but not any specific 
sense and so I want to ask you just very simply are there any 
rebel groups in Syria right now that you would recommend that 
we could trust, that we could you know in in any fashion 
consider an ally to us and sharing values or someone we could 
have a strategic alliance with, with any degree of comfort?
    Mr. Barfi. I was hoping you would ask that question. I 
spent a lot of time with Lewa Al-Tawhid, it is the biggest 
rebel group fighting in the province of Aleppo.
    I have spent time with the foot soldiers from the villages, 
I spent time with the leadership. These people are thoroughly 
nationalists. They are not secular. We have to take the 
difference between what it means to be secular, nationalist, 
and jihadist.
    These people believe in the Syrian state. They want to 
fight for an independent Syrian state where they have the 
freedoms that they want. They don't want to take the fight 
anywhere else. They don't believe in global jihad. They don't 
want to fight the Israelis. They just want the regime to leave 
them alone and have a chance to succeed.
    These guys do not speak of radicalism. They are not calling 
the Alawis heretics. They are trying to build a democratic 
state where everybody has the freedom and you respect the 
minorities and these are the types of groups that our 
intelligence communities needed to vet and get the training and 
get the arms through because they are the best opportunity to 
overthrow the regime to strengthen the nationalists at the 
expense of the jihadists and to instill confidence in the 
Syrians that the western nations in the international community 
is doing something for them and that they do not have to turn 
to the jihadists and Islamists who are the best fighters on the 
battlefields, sir.
    Mr. Stewart. I appreciate you sharing that with us. Let me 
challenge you just a little if I could and I am not disagreeing 
with you like just sincerely want to know. We said the same 
thing about some of the participants in Libya for example or in 
Egypt and it turned out that they weren't nearly as democratic 
nor as friendly to the Western ideals as we thought they were 
at one time. Do you think that might be the case here as well?
    Mr. Barfi. Basically the problem you had in Egypt was there 
was no fighting in Egypt and you moved very quickly. There was 
no transition. You deposed Hosni Mubarak who was a secular 
authoritarian leader. He was president for 30 years.
    There was not a lot of democracy in Egypt. Elections were 
rigged. There was a tolerated opposition but they could do 
nothing. They had no freedoms. So once you had the fall of the 
regime and the quick elections who could benefit?
    Only the Islamists because you can organize in the mosque 
but you cannot organize in the streets so they had some type of 
organization. So they were able to win and as we see the 
problems of Muslim brotherhood.
    What happened in Libya is we did not directly arm the 
militias. What we did is we subcontracted it to the Qataries. 
The Qataries had different--and I spent 6 months in Libya 
during the revolution so I was able to meet with the leaders--
the politicians and the military leaders.
    What happened is the Qataries did not choose--they don't 
have the same ideals and ideology as we do. They are playing 
also to their own domestic constituencies and a lot of their 
domestic constituencies espouse what we would consider 
intolerant ideas and intolerant groups, so they funded those 
militias during the campaigns specifically February 17 brigade 
which was an Islamic brigade.
    We did not work with the defectors, the army defectors who 
had an army units specifically Asayahiah, which were the 
special forces under Abdul Fatah Younis who was the interior--
he was the interior minister under Kadafi. He participated in 
the 1969 revolution. He moved up to military ranks.
    He knew what a military organization was, and he was 
assassinated by the Islamists. We never helped them or his 
people. We never funded them. So we subcontracted. That was the 
problem there.
    If we work directly here in Syria and we are doing the same 
thing. We are subcontracting with the Qataries and the Saudi's 
again in Syria. If we deal directly. If we vet directly. If we 
used our intelligence agencies directly, if they go on the 
field and see: (A) The capability of these people and (B), what 
their ideology is we won't have those problems, Mr. 
Congressman.
    Mr. Stewart. Mr. Chairman, do we have some latitude with 
time then? Yes?
    I have a second question I think it will be a little easier 
to answer but before I do, from other witnesses, do you--is 
there a consensus among you that this is a group that we can 
form an alliance with or do you have some hesitation in that?
    Mr. Jones. I have some hesitation. I have some hesitation 
because I think polling done before the war did show that most 
Syrians do not support al-Qaeda's ideology. That there appears 
to be pretty good data on that.
    But, the one concern I have is hearing from some senior 
free Syrian army officials that the United States putting 
Jabhat al-Nusrah on the foreign terrorist organization list was 
unhelpful and that they actually were playing a role in the 
opposition was a concerning remark.
    Because in that sense that is a very--I see that is a very 
short-term comment where they can be helpful in overthrowing 
the regime but again my biggest concern though is Jabhat al-
Nusrah is getting stronger and it has a some support from the 
opposition leadership. That is where I would pause.
    Mr. Stewart. Okay. I am going to move on but before you let 
me just make a quick comment regarding this if I could I mean 
American----
    Mr. King. I would just say to the gentleman, and don't 
worry about time. Just ask your questions. Don't worry about 
it.
    Mr. Stewart. Okay. Thank you.
    Thank you, Mr. Chairman.
    The American people, by nature, we want to help. When you 
see, you know, the death among civilians particularly in Syria 
and I spent a couple of nights ago with some officials from 
Tunisia and Egypt and Morocco and Libya, and it was encouraging 
for me to hear them talk about their revolution.
    This wasn't just a change in government. They viewed this 
as our revolution just like we viewed 1776 as our revolution 
and that was, I said, encouraging to me, but again I am 
extraordinarily cautious in forming alliances there or 
supposing that we can form alliances that it is going to have 
significant outcome and then wonder what happens in the future, 
but having said that, let me move on if I could.
    Mr. Joscelyn, you have talked, to steal your phrase, you 
mentioned ``creative ways to attack'' and I would like to look 
at that, if we could, you know as devastating as a conventional 
attack is it certainly a tragedy and it is one that we have to 
be aware of and guard against in every way, but reality is is 
that there are much more destructive outcomes that could 
potentially happen to us.
    Pakistan has obviously a large number of nuclear weapons. 
Syria, Iran, and Iraq have possession of, or groups there have 
perhaps access, to you know other weapons of mass destruction, 
particularly chemical weapons. I just wondered how you view 
that threat, the threat of an attack with weapons of mass 
destruction.
    Does it appear to be something that they are aggressively 
moving towards or is it not--is that too big of an apple for 
them? Is this something they don't really want to undertake at 
this time? If you could just share your feelings on, you know, 
that threat because if that happens of course that is a world-
changing event. Any thoughts on that from many of the panel?
    Mr. Joscelyn. Well, I will say this: I don't think, you 
know, I don't know of any detail or intelligence that they are 
currently in possession of any kind of weapons like that, but I 
think you need to take it very seriously the long-standing 
rhetoric to come out of----
    Mr. Stewart. Well, could I interrupt just to clarify. I 
mean when you say they, you mean some of the rebel groups or 
terrorists?
    Mr. Joscelyn. Yes, exactly. You were mentioning to me new 
talk about there is a friend in Syria who clearly has an 
interest in obtaining the chemical weapons and other weapons 
there; has already been receiving higher--more heavy armaments 
from captured bases and the like.
    You talk about in Pakistan there is this elaborate game in 
Pakistan, which is really worth a whole 'nother hearing about 
how al-Qaeda and its affiliated groups have even attacked 
nuclear installations as part of their elaborate game to try 
and sort of free up the security around those arms.
    What I would say is I don't know of any intelligence right 
now that these groups have these weapons. What I would say that 
I am concerned about is that it is something they talked about 
now for well more than a decade, that they want to get these 
weapons.
    You talk about--Chairman King mentioned Abu Ghaith earlier 
who was previously in Iran and then you know was arrested and 
detained after he left Iran.
    One of the things that Abu Ghaith actually spoke about, he 
was a close spokesman for Osama bin Laden after 9/11, and 
inside Iran in 2002 he actually spoke openly about the 
necessity of acquiring these weapons, and he is only one of 
many of these al-Qaeda ideologues who talk along these lines.
    So part of the downside I would say of taking a hands-off 
approach for example to Syria or something along those lines is 
we are not being proactive in trying to figure out a way to 
prevent them from achieving that goal.
    I think Mr. Barfi here said it far better than I could, 
that basically subcontracting out to others to do this type of 
work runs all sorts of risks in and of itself.
    Mr. Stewart. Yes, anyone else?
    Mr. Simcox.
    Mr. Simcox. Sure, yes. I think that if they--I don't know 
if they--I mean--I don't believe at the moment I have not seen 
anything to suggest they do have weapons, al-Qaeda or these 
affiliated groups, but if they got them, I believe they would 
use them without a shadow of a doubt.
    I mean let's--it is different personalities but the same 
group: 
9/11 killed 3,000. If it was 30, great, from our point of view. 
I don't see any evidence to suggest that they would hold back.
    In terms of and the Syrian question, it is extremely 
difficult. I guess I would just always return to the point that 
America's involvement or its lack of it--it won't be thanked 
either way.
    I think America wants to help. It tries to do good. It gets 
involved in Iraq. It is--by many it is hated for it. It doesn't 
get involved in Bosnia; by many, it is hated for it. Syria, I 
think it is going to be the same.
    Mr. Stewart. Yes, I would agree with that. Maybe I will 
just close with this comment.
    It is clearly their objective. They would clearly look to 
have access to those, any weapons of mass destruction, whatever 
they might be. As that area becomes less and less stable and 
less and less predictable, I don't think we can imagine what 
the command and control of those weapons might eventually in 
whose hands they might reside including Pakistan with their 
nuclear warheads and one day an event in Pakistan could shift 
the world as far as how we view that threat.
    So with that, Mr. Chairman I back and thank you.
    Mr. King. The gentleman yields back.
    The gentlelady from Texas, Ms. Jackson Lee is recognized.
    Ms. Jackson Lee. Let me thank the Chairman of the committee 
and the Ranking Member and also thank the Chairman and Ranking 
Member for what have been a series of very instructive and very 
important hearings on this issue.
    Allow me to apologize for not being here at the beginning 
as we were laying a wreath at the women's war memorial as we 
approach Memorial Day, which reminds us of the sacrifice of 
many of the men and women of the United States military in 
battles of yesteryear and battles of today.
    I wanted to ask both Dr. Jones and Dr. Barfi, as I have 
listened--and Mr. Barfi--as I have listened to the testimony 
just this question: What preparation should the United States 
be engaged in on the basis of what we are listening to in terms 
of what the world is today? Whether we speak of al-Qaeda, 
whether we speak of others, what should the United States be 
doing?
    Dr. Jones and Mr. Barfi.
    Mr. Jones. Very briefly, I think we: (A) Must recognize 
that there is in my view a growing threat from Salafi jihadist 
groups that has existed in North Africa and the Levant areas we 
have talked about through Persia, Iran, and down into South 
Asia and potentially other areas.
    I think as we have seen in a few places like Iraq, large 
numbers of American forces are probably not the answer. So I 
think what we are looking at is clandestine units from the 
Central Intelligence Agency and other U.S. intelligence 
organizations, U.S. special operations forces that need to be 
able to do to things as we just talked about on the chemical 
side, if it becomes clear that Jabhat al-Nusrah has access to 
chemical weapons.
    We need organizations like Delta to be able to go in and 
seize control over those kinds of materials before or after, 
ideally before, somebody gets their hands--but I think this is 
the kind of struggle that we are talking about.
    I do think the biggest weakness that we have along these 
lines is our cutting and funding for a number of years and 
actually eliminating the U.S. Information Agency which was so 
effective in combating the Soviet Union's ideology during the 
Cold War.
    I don't think our inner agencies' coordination on pushing 
back against this ideology is what it should be. I don't think 
it is funded as well as it should be, and again I don't think 
it is as coordinated as well as it should be.
    Ms. Jackson Lee. I think that has been very constructive.
    Mr. Barfi. Yes, thank you.
    Mr. Barfi. The biggest problem, Congresswoman, is that we 
have a new frontier, a new front in the Arab world, after these 
Arab Springs. We used to have--we had a long-term working 
relationships with intelligence agencies in the Middle East 
specifically with the Egyptians.
    We had redlines to Omar Souleyman who headed the 
intelligence agencies and a great friend of the United States. 
He was a right-hand man of Mubarak. We no longer have those 
access and those channels and those lines open.
    We need to develop new relationships. In Libya we had a man 
named, Musa Kusa that we worked with. He defected. He is now 
sitting in Qatar; hangs out in hotels all day. He is no longer 
giving us any more information.
    So we had to figure out how to get this information. Who is 
going to tell us what these guys are doing on the ground? There 
are several ways you can do that. You can either: (A) Develop 
your own intelligence sources and own contacts on the ground, 
or you develop new relationships with the organizations.
    In Egypt, it is going to be specifically difficult because 
we have a new front. That is another problem that we have in 
the Arab Spring. We have these new fronts. We saw what happened 
in Benghazi. Sinai, Congresswoman, is a big problem. We have 
seen jihadists gather there not only from Egypt but from other 
countries. They have already attacked Egyptian soldiers in the 
desert.
    They have already had cross-border raids into Israel and 
they are using sophisticated weapons. We are not just seeing 
small arms. We are seeing surface-to-air missiles that have 
been smuggled in. These are big problems.
    So we need to develop these new relationships with these 
people. Also, and the problem that with Egypt is: What are you 
going to do? The Egyptian forces do not have the 
counterterrorism training.
    There is an organization called the Central Security Forces 
that works in the, in the Sinai Peninsula after the Camp David 
Accords, these are rejects. These are military rejects. In 
Egypt you need to have conscription.
    These are people that are largely illiterate. They couldn't 
get into the Armed Forces so they have this outlet into Central 
Security Forces. So we need to figure out what are we going to 
do. Are we going to train these guys? Are we going to try to 
train some new counterterrorism people? Those are the big 
problems that we have moving forward.
    Ms. Jackson Lee. Thank you.
    That is expansive--let me raise the question on the role of 
the Canadian Mounted Police April 22 and these proposed efforts 
by individuals that would attack a train that was leaving 
Toronto going into New York.
    Again, obviously as my Chairman has often said, one of the 
targets that they believe draws the most international 
attention. I have two questions that I would like to pose to 
Mr. Simcox and Dr. Jones.
    Do you think al-Qaeda is operating in Iran as they turn 
their head without governmental intervention or support? Do you 
believe that--in the instance of the April 22 incident that the 
Iranian government may have known about the incident, proposed 
incident, and chose to look the other way?
    Is this not disturbing, given our relationship with Iran? I 
think it builds on what Mr. Barfi has indicated about getting 
new sources and that certainly concerns me, and again, what do 
you suggest that the United States do in focusing on this 
relationship with Iran knowing that these operatives are living 
there but in particular, did they turn their heads and is al-
Qaeda living there with complete protection, if you will, 
because the government looks the other way?
    Dr. Jones. And Mr. Simcox.
    Mr. Jones. Very good questions. If I understood your two 
questions correctly, in my assessment in looking at this issue 
to some degree, the Iranian government is aware of al-Qaeda's 
role there.
    It has been aware from the beginning. It had conversations 
in Afghanistan before they left in 2001. So yes, they are 
aware. Yes, they have provided support.
    My understanding is they have been a little bit cautious on 
encouraging external attacks outside of Iran against Western 
countries.
    I was actually suspicious at first of that, there was a 
connection with this particular Canadian plot that went back to 
al-Qaeda in Iran. I was wrong. I went back and looked more 
carefully at this particular situation and there does appear to 
have been al-Qaeda in Iran involvement in the plot in several 
respects including operatives along the Iranian Afghanistan 
border where, it is worth noting, the United States is 
downsizing if not withdrawing entirely from Afghanistan.
    I have seen no evidence that the Iranian government was 
involved or aware. It is possible. I have seen in talking 
extensively with a range of peoples who should know. I have 
seen no evidence that they were aware. I would be surprised if 
the Iranian government was involved in the attack.
    Again, I don't know whether they were aware--they are 
monitoring these people very closely. It is certainly possible 
that they saw something along these lines. Again, they are 
monitoring them. I think in terms of what to do--look, I think 
the Iranian government needs to be pressured to get rid of 
these guys; return them to their home countries.
    They do appear--and they don't like a public discussion 
along these lines. I think the more we talk about this in 
forums like this, the more pressure it puts them on because I 
think most Shi'i are not going to be happy with an al-Qaeda 
Sunni presence in Iran--in Iran, not something I think they are 
going to want more talk about publicly. So I encourage her 
questions along these lines because I do think it makes them 
uncomfortable.
    Ms. Jackson Lee. Mr. Simcox.
    Mr. Simcox. I certainly believe that al-Qaeda is operating 
in Iran. I think Iran certainly knows the whereabouts of these 
individuals. I think there is a support that is going on 
between the two.
    It has been a--Iran has been a safe haven almost for some 
of these individuals that went there after the fall of the 
Taliban in the immediate post-9/11 world.
    My sense is that the Iranian government--I also haven't 
seen evidence to suggest the Iranian government was involved in 
the Canadian plot. I would also suggest that they would have to 
be--to get involved in that kind of planning and the attention 
it would bring would be a grave strategic mistake on their 
part.
    Now that doesn't mean they haven't made a grave strategic 
mistake, it is entirely possible. But I would be a little bit 
skeptical to suggest they knew about it. It is possible they 
didn't look the other way, but in terms of actual operational 
involvement, I am a little more skeptical.
    I would suggest that if they did know, it was more about 
letting it happen as opposed to actively forcing it. In terms 
of the United States--what the United States can do with Iran, 
I don't see a whole host of great options here, because the 
United States has reached out to Iran very, very publicly under 
the Obama administration especially after he had just been 
elected, this hasn't been reciprocated in any way shape or form 
as far as I can tell by the Iranian government.
    My sense is that they--the presence of al-Qaeda operatives 
on their soil is something they see as a potentially useful 
bargaining chip down the line in terms of any negotiations that 
may be going on with, for example, the Iranian nuclear program.
    So that is essentially how I see it but I certainly think 
there is going to be--there is no reason at the moment for Iran 
to rein in the activities of al-Qaeda and that seems to me to 
be quite a big problem.
    Ms. Jackson Lee. If the Chairman would allow me one last 
question, I would appreciate it. Thank you very much.
    I will pose it to Dr. Jones and Mr. Barfi if some others 
want to comment. Does Syria have--let me ask the obvious--
chemical warfare capacity? But will Dr. Assad use it and what 
other elements in Syria might use or might have access to these 
chemical weapons?
    Dr. Jones, and if someone else wants to comment.
    Thank you very much. I will just conclude as I am listening 
to your answer is that sometimes people would argue that 
information is a negative element.
    I frankly believe that we are now poised with what is 
happened at the Boston Marathon to not turn any moment to get 
information and to act and react, or to act proactively than 
right now, and so I thank the Chairman for this hearing.
    But would you please----
    Mr. Jones. Yes. I think the answer to your question is the 
Syrian government does have access, does have stockpiles of 
especially chemical materials. It has likely used to them in 
some capacity and I suspect as long as it stays a danger, will 
have an impetus to potentially use them.
    I think if one looks at the involvement of Jabhat al-Nusrah 
and other organizations in seizing control of the al-Jara 
airbase, of dam facilities, of an Air Force base in Iblib, and 
a number of other locations, assuming the Syrian regime does 
collapse eventually, I think there is a decent likelihood that 
this material will not be secured and organizations that are in 
the opposition may have the ability to control it.
    So I think there is a very serious danger of this material 
getting outside of the government's hands and potentially 
outside of other states-in-the-regions' hands. This I would say 
is a very serious--I have already heard some potential 
indications of some opposition groups essentially getting their 
hands on small amounts of chemical material, which is a very 
disturbing.
    Mr. Barfi. So the problem with Syria is it has, I think, 
the third or fourth largest arsenal of chemical weapons in the 
world. Basically, the president's father, Bashar's father, 
Hafez, created this as a turn against an Israeli first strike. 
It was not supposed to be used in offensive capacity.
    Now that the regime is under is under threat and may lose 
power, we have seen the regime and resort to small uses of it 
as it increases its use of its weapons of its arsenal, it has 
gotten to the point where it has used its most lethal ones, 
chemical weapons, in very small amounts.
    I think we will see it because if there is no response to 
an international community, there is no reason to believe that 
the regime will not increase its use of the weapons on more 
wide-scale levels that will result in higher levels of civilian 
casualties.
    The problem with the weapons falling outside the control of 
the regime is it is a very hard if you don't have expertise in 
these weapons to use them. It is not like MacGyver, the A Team, 
you mix a couple of substances and you are going to be able to 
use it.
    The problem is: How are you going to deliver it? What are 
you going to put it on? These people cannot put these weapons 
on a rocket. You need very sophisticated people and it is not 
something that you can learn on the internet like the Boston 
bombers how to build a bomb in the kitchen of your mom.
    You need experts in that and we don't see that these people 
have those experts at this time. They would love to get their 
hands on these weapons but they would--even if they did, they 
wouldn't know how to use them and they would see casualties on 
their own side before they were even able to to put these into 
play.
    Ms. Jackson Lee. Let me thank all the witnesses.
    Thank you, Mr. Chairman. I yield back.
    Mr. King. The gentlelady yields back.
    I just have a few follow-up questions.
    Mr. Joscelyn, to give bipartisan credit, throughout your 
statement you seem to give the Obama administration credit for 
both the State Department and the Treasury Department for 
recognizing and focusing in on the threat of al-Qaeda and Iran. 
Is there anything else you think the administration should be 
doing that it is not regarding the al-Qaeda elements in Iran?
    Mr. Joscelyn. You know, it is tough to say. Seth here 
mentioned that sunlight in asking these questions plays a big 
role and I totally agree with that.
    As a result of the Treasury Department designating Yasin Al 
Suri as the head of al-Qaeda's network in Iran, he was 
basically sidelined and what they did was they allowed Muhsin 
al Fadhli who was the current head of al-Qaeda and Iran to come 
out of prison to take over the network.
    So that sunlight I think that Seth is mentioning has direct 
effects on their behavior. So the more you expose the facts of 
what is going on, the better it is.
    I just want to interject one quick thing on the idea of the 
Canada plots and whether or not Iranian officials were 
involved. Like the other witnesses, I haven't seen any specific 
evidence saying that any Iranian officials were involved.
    My only hesitation is I don't think we really know one way 
or another and part of the reason for that is the way the 
Treasury Department has described the agreement between Iran 
and al-Qaeda, it says explicitly that al-Qaeda must keep 
Iranian authorities informed of their activities otherwise if 
they violate these terms they run the risk of being detained by 
Iranian authorities.
    I don't know the answer to this question, in the wake of 
the Canada plots, I don't know of any al-Qaeda operatives 
inside Iran who were detained or arrested. Maybe some were, I 
don't know of any and I think that would be indicative one way 
or another of either tacitly turning a blind eye and approving 
of something like that or possibly just, you know, basically 
looking the other way as the Congresswoman asked.
    The other thing I would say about that is that where one of 
these platters went for training and to meet in Zahadan Eastern 
Iran is also a major hub for the Iranian Quds Force. The RGC 
Quds Force.
    They traffic drugs through there. They traffic arms through 
there illicitly. It is basically crawling with Quds Force 
operatives who report right up to the regime.
    It is one of those towns--Zahadan is one of those towns 
where the collusion between these various parties is quite 
evident. So I don't know the answer to that question whether 
Iranian authorities were involved in the Canada plots either, I 
just say that there are good reasons to actually keep pressing 
the inquiry.
    Mr. King. With the apprehension of bin Laden's son-in-law, 
I know the questioning was stopped after I think 22 hours, but 
what is the potential do you see from him from obtaining 
information about the al-Qaeda presence in Iran?
    How close was he once he was in Iran? How much access do 
you think he would have had to knowledge as to what the true 
relationship is? The complexity of the relationship?
    Mr. Joscelyn. I think it is a good question. I think you 
can have quite a bit.
    I mean, here is the complexity of all of this, right? What 
happens after 9/11 is that Abu Ghaith turns into this chief 
spokesman for bin Laden. He sitting next to him within days of 
the plot on a video, right? Days of the 9/11 attack on a video.
    He then, some time in early 2002 according to press 
reporting, flees into Iran. Now I have previously reported and 
I have put together a string of facts of what he did inside of 
Iran in 2002 including threatening the United States, including 
a cell that he was tied to in an attack on U.S. Marines in the 
Failaka Islands off of Kuwait.
    There is a whole string of things that were tied to him 
basically as he is on Iranian soil in 2002. Then in 2003 he is 
placed under house arrest. Basically I think the Iranians were 
spooked by a number of things; one were these international 
plots were tied to al-Qaeda's Iranian presence where there were 
complaints from the Saudi's and U.S. Government, back to Seth's 
point, the transparency and sunshine does have an effect on 
their behavior.
    So he and others are put under house arrest. Now here is 
where this just turns again is that we know from the Treasury 
Department that by 2005 the Iranians had now cut a deal with 
other al-Qaeda operatives to allow them to freely operate 
inside Iran and some of those operatives include guys who were 
tied to Abu Ghaith.
    So I would say the unpacking all of this in figuring out 
what he knows about all of this is crucial for kind of 
understanding--he is one of few eyewitnesses that we would have 
in custody that actually could tell us how all of this unfolded 
and sort of the double game and the sort of inconsistent 
behaviors people have seen of the Iranian regime toward all of 
this.
    Mr. King. Dr. Jones.
    Mr. Jones. Mr. Chairman, if I could just make one remark. 
My understanding of the lay down in Iran is that there is some 
compartmentalization of individuals that have been under house 
arrest so I do think the interrogation can be quite useful.
    It won't give a big--a complete picture of the relationship 
with Iran because I do think it is somewhat compartmentalized, 
but it will give a portion.
    You know, there are other places where there would be 
useful access to information. The bin Laden documents I 
understand that have still not been released have plenty of 
information about al-Qaeda's involvement in Iran and vice 
versa. Whether that gets released or not is obviously 
administration decision.
    Mr. Joscelyn. I totally agree with that. I would urge 
transparency as much as possible with the bin Laden documents. 
As I have reported, hundreds of thousands of documents and 
files were recovered during the May 2011 raid in Abbattabad.
    The administration has released a grand total of 17 of them 
out of hundreds of thousands. This was announced in a speech at 
the Wilson Center by current CIA director John Brennan. 
Ironically enough, he was promoting transparency on behalf of 
the Obama administration and government.
    I think we can hold them to that and say if you really want 
to be transparent, you should release as many of these 
documents as possible including all documents, not just some, 
all documents dealing with Iran's collusion with al-Qaeda.
    Mr. King. Thank you.
    Mr. Barfi, this will be my final question and Mr. Barfi and 
any of you can comment on it.
    Assuming we can't find a group in Syria that can be trusted 
that we feel is no jihadist threat, and we supply them with 
weapons, and Assad is overthrown, at the end of the day, is JN 
though the one best place to take over that movement in order 
to have a successful revolution, have elements at least 
reasonably favorable to the West, bring that about, but then 
have JN take over the revolution?
    Mr. Barfi. The problem there, Congressman, is that JN has a 
strategic vision of not what it wants to do right now in the 
revolution, but it wants to do in the day after.
    It knows that the big fight is not now against Assad, it is 
what the future of Syria is. So what are they doing? They are 
taking over infrastructure.
    They have taken over the grains, the granaries. So they 
have grain supply so they can bring the bread to win over the 
confidence of the people; the hearts and the minds.
    They control strategic roads and access points in Syria 
that link certain very important areas when you need to bring 
final fighters and you need to bring final provisions in.
    You take control of the oil installation in the northeast. 
They are controlling all of this infrastructure, and they can 
squeeze people for things that they want later on.
    What will likely happen after the fall of the regime is we 
will see local warlords pop up in certain regions. It will be 
very cantanized in Syria; focused on cities. There will be five 
brigades fighting for al-Ethel. Another six fighting for Hama 
and Homs. This is the way the revolution will play out, these 
warlords will fight each other.
    What needs to be done is that JN cannot sit on the 
sidelines, hide the weapons--this is another problem is JN--and 
this is, I know from talking to people who have raided bases 
with them. They are very good--they are put in charge sometimes 
in dividing the spoils.
    So they get the first choice of what they want when they 
take a base and they get the weaponry. So they have all these 
things. So the problem is the day after. What does JN do?
    Does JN sit on the sidelines and watch these nationalist 
brigades fight amongst themselves while it strengthens itself, 
it strengthens its ties to the community?--and you have to 
understand, Congressman, JN is very, very popular.
    I was in Zelepos when they were designated terrorist 
organization in the front of al-Qaeda in Iran, and a lot of 
people asked me why did America do this? Why does America hate 
JN so much? You have to understand their popularity is very 
high and it is not because people like al-Qaeda.
    They are not talking about other ideology. They are talking 
about what they do for society. Every day people line up at the 
entrance to JN's headquarters and ask them for help in solving 
problems and they do it in an organized way. So that is 
something we have to worry about.
    So, the day after these brigades are going to fight amongst 
themselves. What is JN going to do? Are they going to stand on 
the sidelines? Is it going to throw its weight with certain 
brigades?
    What needs to be done and what we need to encourage is the 
day after these brigades turn on JN first and then they solve 
their problems. They weaken JN before they weaken themselves 
and that is what we need to focus on.
    Mr. King. Would they be willing to consolidate their 
position against JN or would each be like an individual warlord 
unwilling to share? In other words, can there be that sense of 
coordination among the other elements?
    Mr. Barfi. You need to use your leverage. If you are 
funding certain brigades, if you are the United States and you 
are funneling aid in weapons to certain brigades, you then have 
influence over them and you can use that influence to achieve 
your goals.
    If you are not playing the game with people, there is no 
reason for them to help you. So if we can fund the strike 
brigades and we tell them we want X, Y, and Z and you take a 
hands-off approach and see--we don't get involved too many 
cooks in the broth there--you can get the goals that you want. 
You can achieve that saying hey, the day after this is what you 
should do to worry about what you need.
    Mr. King. I have to watch what I say, but let me ask you. 
Do you think we are asserting that now? Are we paving the way 
to assert that or are we just dealing through subcontractors? 
We can't do it through Qatar.
    Mr. Barfi. Yes, I think that we need to get more directly 
involved at this point in time. Look, nobody wants to send our 
boys overseas to put them in harm's way. We want to focus on 
rebuilding the homeland after all these years where our forces 
have been away, but we need to deny al-Qaeda a new safe haven.
    They are on the run in Pakistan. They are on the run in 
Yemen. Why give them a new opportunity in the heart of the Arab 
world? You have got to keep them on the run and we need to deny 
them that. That is why we need to get more involved at this 
point in time, and if we don't, we will have this haven and we 
will have other actors that aren't our friends being involved 
funneling aid to the wrong organizations.
    Mr. King. I think we are on the same page.
    Anybody else want to comment on that?
    Okay.
    Well, let me thank all of the witnesses. This has really 
been a very illuminating hearing. I want to thank all of you 
for your expertise over the years and for sharing it with us 
today.
    Members of the committee may have some additional questions 
for you and we will ask you to respond to these in writing and 
probably the only negative part of this is because you have 
always performed so well, we may ask you back again and tie up 
some more of your time, but thank you very much.
    And without objection, the committee stands adjourned.
    [Whereupon, at 11:49 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
